<html>
<title> - TOOLS OF TRANSNATIONAL REPRESSION: HOW AUTOCRATS PUNISH DISSENT OVERSEAS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   TOOLS OF TRANSNATIONAL REPRESSION:
                 HOW AUTOCRATS PUNISH DISSENT OVERSEAS

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-7]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available via www.csce.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-829PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       
                     


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
                    
  HOUSE				               SENATE
  
ALCEE L.HASTINGS, Florida       	ROGER WICKER, Mississippi,
          Chairman			  Co-Chairman
JOE WILSON, South Carolina		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania		JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina		THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin		        TOM UDALL, New Mexico
MARC VEASEY, Texas			SHELDON WHITEHOUSE, Rhode Island 

                                     
                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed



                                  [ii]
                                  
                   TOOLS OF TRANSNATIONAL REPRESSION:
                          HOW AUTOCRATS PUNISH
                            DISSENT OVERSEAS

                              ----------                              

                           September 12, 2019

                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Co-Chairman, Commission on 
  Security and Cooperation in Europe.............................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3

Hon. Joe Wilson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4

Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5

Hon. Marc Veasey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe

                               WITNESSES

Alexander Cooley, Director, Columbia University's Harriman 
  Institute for the Study of Russia, Eurasia and Eastern Europe 
  and Claire Tow Professor of Political Science, 
  Barnard College................................................     6

Nate Schenkkan, Director for Special Research, Freedom House.....     8

Bruno Min, Senior Legal and Policy Advisor, Fair Trials..........    11

Sandra A. Grossman, Partner, Grossman Young & Hammond, 
  Immigration Law, LLC...........................................    14

                                APPENDIX

Prepared statement of Hon. Roger F. Wicker.......................    24

Prepared statement of Hon. Alcee L. Hastings.....................    27

Prepared statement of Hon. Benjamin L. Cardin....................    28

Prepared statement of Alexander Cooley...........................    30

Prepared statement of Nate Schenkkan.............................    36

Prepared statement of Bruno Min..................................    40

Prepared statement of Sandra A. Grossman.........................    51

                        MATERIAL FOR THE RECORD

``Putin and other authoritarians' corruption is a weapon--and a 
  weakness,'' by David Petraeus and Sheldon Whitehouse...........    56
Prepared statement of Nadejda Atayeva, Uzbekistan................    58

Prepared statement of Dolkun Isa, China..........................    63

Prepared statement of Muhiddin Kabiri, Tajikistan................    66

Prepared statement of Alexey Kharis, Russia......................    71

Prepared statement of Ilhan Tanir, Turkey........................    73

 
                   TOOLS OF TRANSNATIONAL REPRESSION:
                          HOW AUTOCRATS PUNISH
                            DISSENT OVERSEAS

                              ----------                              


                           September 12, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:19 a.m. in Room 210, Cannon 
House Office Building, Washington, DC, Hon. Roger F. Wicker, 
Co-Chairman, Commission on Security and Cooperation in Europe, 
presiding.

    Commissioners present:  Hon. Roger F. Wicker, Co-Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Joe Wilson, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Cory 
Gardner, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Sheldon Whitehouse, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Marc Veasey, 
Commissioner, Commission on Security and Cooperation in Europe.

    Witnesses present:  Alexander Cooley, Director, Columbia 
University's Harriman Institute for the Study of Russia, 
Eurasia and Eastern Europe and Claire Tow Professor of 
Political Science, Barnard College; Nate Schenkkan, Director 
for Special Research, Freedom House; Bruno Min, Senior Legal 
and Policy Advisor, Fair Trials; and Sandra A. Grossman, 
Partner, Grossman Young & Hammond, Immigration Law, LLC.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Well, welcome, everyone. How are we doing? Good 
to see you. This hearing will come to order. Welcome on behalf 
of the Helsinki Commission to this hearing on ``Tools of 
Transnational Repression: How Autocrats Punish Dissent 
Overseas.'' And I think I'll turn my ringer off before you all 
learn what my ringtone is.
    We've assembled an expert panel to probe how autocratic 
states project repressive force beyond their borders to silence 
dissenters, human rights defenders, journalists, and other 
perceived enemies overseas. Autocrats today have access to a 
range of tools to extend their reach by thousands of miles, 
sometimes in fractions of a second. Some schemes rely on 21st 
century technologies to hack, surveil, and intimidate targets, 
while others use blunter tactics, such as extortion, abduction, 
and assassination. This practice of transnational repression 
constitutes a wholesale assault on the rule of law 
internationally. It requires the attention of all democratic 
nations.
    This commission, the Helsinki Commission, is particularly 
concerned by the politically motivated abuse of INTERPOL by 
autocratic states wishing to harass and detain their opponents 
overseas, often in the hopes of trying them on bogus criminal 
charges. INTERPOL is a legitimate instrument for international 
law enforcement cooperation, linking the law enforcement arms 
of its 194 member countries through a global communications and 
database network. The United States relies on INTERPOL daily to 
bring criminals to justice and foil threats to global security. 
As with the United Nations, however, INTERPOL's broad 
membership leaves it open to manipulation by authoritarians.
    Repressive regimes have seized on INTERPOL's potent tools 
to harass and detain their perceived enemies anywhere in the 
world. Red Notices and diffusions are among the most commonly 
abused instruments at INTERPOL, as they constitute 
international requests for detention and extradition. The 
Helsinki Commission regularly receives reports from dissidents, 
journalists, and human rights defenders across the OSCE region 
who are targets of INTERPOL Notices or diffusions issued by 
autocratic states on trumped up charges.
    Perhaps the most prominent case is that of outspoken 
Kremlin critic Bill Browder. After his lawyer, Sergei 
Magnitsky, was murdered by Russian thugs for exposing state-
sponsored corruption, Mr. Browder emerged as a champion of 
transparency and accountability for President Putin's misrule. 
In response, the Kremlin has embarked on a more than decade-
long campaign to silence Bill Browder. As of today Russia has 
issued at least eight politically motivated diffusions against 
Mr. Browder. And yet, to our knowledge, INTERPOL has not 
penalized Russia in any way to punish or deter this abuse.
    To the contrary, Russia felt comfortable enough in its 
position in the organization to have proposed a leading 
candidate for the presidency of INTERPOL last fall. At the time 
I joined with fellow Helsinki Commissioners Shaheen and Rubio, 
along with Senator Coons, to denounce the Russian candidacy, 
which fortunately was ultimately defeated after an outcry from 
the United States and our European allies.
    Of course, Mr. Browder is one victim, and Russia one 
abuser, among many. Ahead of this hearing, the Helsinki 
Commission received statements from individuals from China, 
Turkey, Uzbekistan, and Tajikistan who have been targeted by 
authorities using INTERPOL. At this point I request that these 
statements be entered into the record of this hearing. Is there 
objection? Without objection, they'll be entered at this point.
    The Helsinki Commission is taking action to address these 
assaults on the rule of law. Chairman Alcee Hastings and I are 
preparing to introduce bipartisan legislation in the House and 
Senate to tackle the abuse of INTERPOL by autocrats.
    The Transnational Repression Accountability and Prevention 
Act will lay out priorities for U.S. engagement with INTERPOL, 
encourage executive branch agencies to approve processes for 
responding to politically motivated INTERPOL Notices, and 
codify strict limits on how INTERPOL communications can be used 
by U.S. authorities against individuals in our country. In 
addition, this legislation will require the State Department to 
report on trends in transnational repression in its annual 
human rights report.
    The U.S. has long been a champion of reform and good 
governance within INTERPOL. Since 2016, INTERPOL, with U.S. 
support, has enhanced vetting of Notices and diffusions, 
created special protections for refugees, instituted greater 
transparency regarding its adjudication of complaints from 
victims, made rulings on complaints binding, and begun 
reviewing thousands of long-standing Notices and diffusions. 
But more remains to be done. The organization is in dire need 
of greater transparency. Countries should face consequences, 
including being denied leadership positions, for repeated 
abuses.
    I might add that this matter has been brought to the 
attention, successfully, of the OSCE Parliamentary Assembly at 
our annual legislative meeting, just this past July. I 
appreciate the support we had from around the OSCE area.
    Our witnesses this morning will provide expert testimony on 
the scale of this problem and policy recommendations to address 
it. Before introducing them, do members of the Commission 
request to be heard on this issue?
    Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Mr. Chairman, first let me thank you and 
Congressman Hastings for calling this hearing. It's critically 
important. As I was listening to your opening statement, I 
agree completely with everything you said. This hearing 
couldn't be more appropriately chaired by Senator Wicker, 
``Tools for Transnational Repression.'' He's not only the 
Senate chair of the Helsinki Commission, but he's vice 
president of the OSCE Parliamentary Assembly. So he's very much 
engaged with our international partners in carrying out the 
commitments of the Helsinki Final Act. And I applaud you for 
your leadership on this.
    As we know, the principles of Helsinki are freedom, and 
peaceful and just democratic societies. And that those 
principles are to protect the human rights of the citizens of 
each country--from religious persecution, from the freedom of 
the media, to freedom of NGOs, to the ability to peacefully 
disagree with your government. That's part of the fundamental 
principles of Helsinki. And as we all know, one of the binding 
principles is that each member State has the right to challenge 
actions in any other member State.
    The problem we have is that it's not only oppression within 
the country itself of its citizens. We now see the outreach 
beyond their own geographical borders. And that is absolutely 
outrageous. The most blatant example was Jamal Khashoggi's 
murder in Turkey--the outreach of the Saudis in doing that. But 
Turkey itself has abducted a dissenter from Malaysia. So, you 
know, we find that--and the chairman's comments about the use 
of Red Notices by INTERPOL is shocking, and something that has 
to end. And I applaud your efforts to spotlight that at this 
hearing, but also to pursue legislation.
    How do we respond to it? Well, one way we respond to it is 
by having this hearing. And we thank the witnesses that are 
here. We put a spotlight on it. That's an extremely important 
part. Passing legislation. And I very much look forward to 
working with Senator Wicker on his legislation. Enforcing the 
Magnitsky sanctions. We're now 10 years from when Sergei 
Magnitsky was murdered. And the Congress responded in 2012 by 
the passage of the Sergei Magnitsky sanctions law against 
Russia--expanded it to global in 2016. And that has now taken 
roots in many other countries around the world to let abusers 
know that if they do this there will be consequences.
    We used that against the Saudis in regard to the Khashoggi 
murder, but it was used but not to the full extent. Congress, 
under the Magnitsky statute, asked for further considerations, 
which this administration has not complied with. So it's also 
enforcing our laws here that can help deal with this 
international problem.
    So, Mr. Chairman, I wanted to take this time to thank you 
for your leadership on this, to thank the panel for being here, 
let us know that we very much will be united--Democrats and 
Republicans--to deal with what is this new trend of the 
transnational repression.
    Mr. Wicker. Thank you, Senator Cardin.
    Representative Wilson.

   HON. JOE WILSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wilson. Thank you, Co-Chairman Roger Wicker, with 
Chairman Alcee Hastings, for calling this important hearing. 
This topic is a critical and startling one. The enemies of 
freedom and democracy around the world have always persecuted 
those who dared to criticize them. This is an unfortunate 
reality, one that I'm grateful to say the United States has 
always fought against to promote freedom. But it is appalling 
that now these tyrants and authoritarian regimes around the 
world seek not only to persecute their critics at home: They 
now chase them to the ends of the Earth, ensuring that no one 
and no country is the world is safe for critics. Unfortunately, 
these criminal regimes do this by exploiting the very 
international rules-based order meant to prevent and fight 
international crime.
    This is a very serious issue. The fact that countries like 
Russia, China, and Venezuela abuse their access to the 
International Criminal Police Organization, or INTERPOL, to 
issue bogus Notices with the express intent to repress dissent 
against their own democratic regimes is dangerous. It is not 
only imperiling to the champions of freedom around the world, 
but it undermines the very integrity of INTERPOL and, more 
broadly, of the international system we've worked so hard to 
build.
    Knowing how critical this issue really is, I'd like to 
thank our expert panel today for their work and their testimony 
today. I'm also appreciative of the opportunity to work with 
Chairman Hastings on the House version of the Transnational 
Repression Accountability Act, TRAP, which seeks to address 
some of the ways autocrats exploit INTERPOL, as well as to 
improve U.S. capabilities to identify and respond to instances 
of abuse. I thank Chairman Hastings for his leadership on this 
issue and commend the Helsinki Commission staff for their hard 
work on the TRAP Act.
    With that, I yield back the balance of my time, and I look 
forward to hearing from our distinguished panel today.
    Mr. Wicker. Senator Whitehouse.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Well, this is a very special occasion 
because Joe Wilson and I agree virtually 100 percent, which is 
always a wonderful thing. [Laughter.] There is a lot of talk 
about how there has been a clash of civilizations that 
dominates the globe. I think there is a clash of civilizations, 
and it's between rule of law civilization and kleptocracy, 
autocracy, and criminality. Unfortunately, kleptocracy, 
autocracy, and criminality, at some point, depend upon rule of 
law. Because once you've stolen enough to become a very rich 
person, suddenly rule of law looks like a good thing. And the 
transit of the illicit proceeds from kleptocracy, autocracy, 
and criminality into the protection of our rule of law is 
something that we have a national security interest in 
preventing.
    And I'd like to ask that the article to that effect that 
General David Petraeus, the former CIA director, and I wrote be 
entered into the record, and express my appreciation to all of 
these people here for helping to bring to light the dangers. 
It's not just our allowing their use of the rule of law to 
protect their ill-gotten gains. It's also needing to make sure 
that their tools of repression that keep their populations in 
place and punish whistleblowers are exposed, and that we do not 
allow our rule-of-law tools to be used for purposes of 
oppression.
    So, Mr. Chairman, thank you. Thank you to the witnesses. 
This is terrific work by the Helsinki Commission.
    Mr. Wicker. I thank Senator Whitehouse. And without 
objection, that article will be entered into the record.
    And now to our panel.
    First, Alexander Cooley, a political science professor at 
Barnard College and director of Columbia University's Harriman 
Institute. Professor Cooley wrote the book on extraterritorial 
authoritarian practices. The book is entitled, ``Dictators 
without Borders: Power and Money in Central Asia,'' which was 
co-authored by John Heathershaw and published in 2017. Drawing 
on his scholarly work, Professor Cooley we hope will explain 
the origins, scope, and trajectory of transnational repression.
    Then we will hear from Nate Schenkkan to provide concrete 
examples of these authoritarian practices based on his work as 
director of special research at Freedom House.
    Our third witness is Bruno Min, a senior legal and policy 
advisor at Fair Trials, an international nonprofit that 
monitors criminal justice standards around the world. Mr. Min 
will present his experience leading the Fair Trials advocacy 
relating to INTERPOL and other examples of cross-border justice 
and discrimination.
    And finally, we will hear from Sandra A. Grossman, an 
immigration lawyer and founding partner of Grossman, Young & 
Hammond, where she has honed her expertise in complex and 
sensitive immigration issues, often involving statements 
targeted by politically motivated INTERPOL communications.
    I will refer you to the materials in your folders for our 
witnesses' full bios. I look forward to their testimony. I 
invite Professor Cooley to begin. We ask each of you to limit 
your verbal remarks to 5 minutes. Welcome, Professor Cooley.

  ALEXANDER COOLEY, DIRECTOR, COLUMBIA UNIVERSITY'S HARRIMAN 
INSTITUTE FOR THE STUDY OF RUSSIA, EURASIA, AND EASTERN EUROPE 
 AND CLAIRE TOW PROFESSOR OF POLITICAL SCIENCE, BARNARD COLLEGE

    Mr. Cooley. Thank you, Co-Chairman Wicker and members of 
the commission. Thank you for inviting me to testify about the 
topic of transnational repression as part of this hearing on 
reforming INTERPOL. And I request that my written testimony be 
admitted into the record.
    Mr. Wicker. Everyone's written statement will be admitted 
into the record, without objection.
    Mr. Cooley. Thank you.
    My aim today is to explain why autocrats are increasingly 
projecting their reach overseas and highlight how INTERPOL has 
become a weapon in these efforts. By transnational repression, 
I refer to the targeting by governments and their internal 
security and intelligence services of the exiled co-national 
political challengers, civil society advocates, non-pliant 
business community members, and journalists who reside abroad. 
These extraterritorial acts of repression may include coercive 
acts, including assassination attempts, disappearances, forced 
abductions, and renditions back to the home country--also, the 
act of monitoring, infiltration, disruption of exiled 
communities abroad, the harassment and intimidation of an 
exiled political opponent's family members in the home state in 
order to deter political activities abroad, and cooperation 
between the security services of a host and sending country to 
deny exiles due process that would determine eligibility for 
political asylum.
    Transnational repression is certainly not new. Think of 
Soviet security services going after exiles and emigres after 
the 1917 revolution. But this current wave does have 
distinctive drivers and dynamics. It's foremost an outcome of 
the recent global backlash against democratization. Democratic 
optimism in the 1990s and early 2000s has given way to the 
emergence of a more aggressive and a savvier breed of autocrat. 
The so-called Color Revolutions of the mid-2000s and Arab 
Spring in the Middle East have prompted authoritarians to 
reframe democratic opponents and civil society activists as 
security threats, intent on destabilizing and disrupting their 
rule. So as political opponents flee these crackdowns and go 
abroad, autocrats aggressively pursue them in exile and attempt 
to deny safe spaces from which they can organize, broadcast 
independent or oppositional media, and spotlight their 
governments' abuses.
    Second, globalization has created new diaspora communities 
of economic migrants that leave their poor authoritarian home 
countries in search for work. Cheap international 
transportation, low-cost communications, allow for the constant 
transmission of information, ideas, and values between 
diasporas and their home-
country communities. And this raises the concerns of autocrats 
that these overseas groups may become radicalized or 
politically active back home.
    Third, the rise of new digital and information 
technologies, including social media, offers new tools to 
authoritarians to extend their control of the information 
space. Without leaving their own territorial borders, dictators 
can now target the communications and social media profiles of 
exiles abroad, disrupt online platforms, and damage anti-
government websites, and intimidate outspoken regime critics 
with electronic messages and the collection of their personal 
information.
    This new transnational repression is taking place at a time 
when the international environment during which liberal 
democratic norms are weakening. Autocrats are actively 
cooperating with one another and learning how to successfully 
repurpose international institutions to avoid international 
scrutiny and accountability for human rights abuses. Some of 
this cooperation has been formalized with international 
organizations. For example, the Shanghai Cooperation 
Organization, led by China and Russia and including most 
Central Asian countries, maintains a common blacklist of 
individuals and organizations under the auspices of its 
regional anti-terrorism structure--RATS for short.
    Though the list is officially meant to target the three 
evils of extremism, terrorism, and separatism, in practice 
human rights organizations have noted that member country 
regimes use the SCO blacklist to deny each other's regime 
opponents safe harbor and asylum. Experts have also cautioned 
about the organization's overly broad definition of the three 
evils, its practice of unconditional extradition, and its 
opaque data sharing and classification practices.
    In this more unsure international environment, autocrats 
are also now repurposing INTERPOL to use against their 
political enemies abroad, with the INTERPOL alerting system. 
INTERPOL's own constitution mandates that the alert system must 
not be abused for political purposes. However, in practice 
authoritarians are increasingly violating neutrality by 
designating wanted political opponents as criminals or even 
terrorists. Over the last two decades, we've seen an explosion 
in INTERPOL alerts, increasing almost tenfold from about 1,400 
in 2001 to over 13,000 in 2013. The latest account on the 
website mentioned 58,000 active Notices, about 7,000 of which 
are public.
    Russia and China issue a high volume of alerts, but 
autocrats in smaller countries also appear to be abusing the 
organization. For example, political scientist Ed Lemon has 
uncovered that the small Central Asian state Tajikistan has 
issued 2,500 Red Notices, while we have reporting that the 
governments of Azerbaijan, Egypt, Iran, India and Venezuela 
also aggressively abuse the list for political purposes.
    I think it's important to mention that the repressive 
effect of this abuse does not just hinge on whether a political 
opponent is successfully extradited. In most democracies, 
properly functioning judicial systems tend to eventually weed 
out the obviously politically motivated extradition request. 
However, the alerts can still have devastating consequences. 
They prevent travel and lead to unexpected detentions in third 
countries. They incur costly legal bills. And they make it 
difficult for those listed to conduct banking and other 
financial transactions. Moreover, repressive governments use 
the very act of being listed that they initiate to tarnish the 
personal reputations of those in exile, intimidate their family 
members, and confiscate their property and business.
    Nadejda Atayeva, whose testimony is in the record, is a 
human rights defender with refugee status in France. She 
remained on the Red Notice list for over 15 years after she was 
accused by the Government of Uzbekistan of an economic crime, 
which was her family pointed out corruption in a particular 
sector, and later convicted in absentia. This conviction 
appears to have been intended to hamper her advocacy work 
abroad as a human rights defender.
    Journalists and advocacy organizations have spotlighted 
many of these abuses, but the continued lack of transparency 
makes it difficult to assess the progress of reform efforts. 
The TRAP Act would provide much-needed basic data about which 
member states issue Notices and in what frequency. It would 
shed light on how INTERPOL's own independent oversight board 
adjudicates complaints of abuses and which member states are 
the most frequent violators. And in turn, this will allow other 
member governments, activists, and the media to identify and 
track obvious abuses of the international policing network. 
Finally, it will help ensure that politically motivated abuse 
of INTERPOL is kept in check and deter other authoritarians 
from similarly misusing the organization.
    Although it may not be realistic for the United States or 
any one country to check all of the malevolent transnational 
activities of autocrats and their foreign security services, 
the TRAP Act would send a powerful signal that autocracies will 
not have a free hand to refashion international organizations 
and redefine basic human rights standards and critical 
protections.
    Thank you for your attention.
    Mr. Wicker. Well, thank you very much.
    And Mr. Schenkkan, we'll continue with you. We appreciate 
your attendance.

  NATE SCHENKKAN, DIRECTOR FOR SPECIAL RESEARCH, FREEDOM HOUSE

    Mr. Schenkkan. Thank you very much. Co-Chairman Wicker and 
members of the commission, it's an honor to testify before you 
today.
    I think Professor Cooley has already provided a summary of 
transnational repression and what it is, so let me skip ahead 
to the Turkish case, which is the prime example in my 
testimony.
    I began focusing on this issue, transnational repression, 
in my work at Freedom House after the July 2016 coup attempt in 
Turkey. In response to that coup attempt, the Turkish 
Government embarked on a global campaign against those that it 
held responsible, principally members of the Gulen movement. 
Using an expansive guilt by association approach, Turkey 
designated anyone associated with the movement as part of a 
terrorist organization, and aggressively pursued them around 
the world. This involved multiple tools. Turkey uploaded tens 
of thousands of requests for detention into INTERPOL's systems. 
It canceled the passports of thousands of people who were 
outside the country. It refused to renew the passports of 
others. And it refused to issue passports for some Turkish 
children born outside the country, in an effort to get their 
parents to return to Turkey so that they could be arrested.
    Most strikingly, Turkey physically brought back at least 
104 Turkish citizens from 21 countries, according to its own 
official statements. At least 30 of those were kidnappings--
citizens taken from abroad without any legal process 
whatsoever. People pulled off the streets of foreign cities, 
bundled onto private jets linked to Turkey's intelligence 
services. In one well-documented case, the kidnapping of six 
Turkish citizens from Kosovo, one of the men Turkey took was 
the wrong person--a different Turkish citizen with a similar 
name. That man remains in prison in Turkey anyway, while the, 
quote/unquote, ``right'' man received asylum in Europe.
    The Turkish example since 2016 is striking, and useful to 
study for several reasons. Because it's so concentrated in 
time--this is only in the last 3 years--because it is so 
aggressive, and because it uses so many different tactics.
    But transnational repression is universal. Freedom House 
has just embarked on a new study of transnational repression 
that will document its scope and scale around the world since 
2014. Data collection is far from complete, but we've already 
documented 208 cases of violent transnational repression in the 
last 7 years, targeting exiles from 21 countries, and we know 
there are hundreds more waiting to be identified.
    These documented cases range from Saudi Arabia's murder of 
Jamal Khashoggi in Istanbul to Azerbaijan's kidnapping of Afqan 
Muxtarli in Georgia, to the disappearing of Thai activists from 
Laos, to the mass detention and deportation of Uighurs, 
Tibetans, and Falun Gong practitioners to China from a range of 
countries. Transnational repression occurs in all parts of the 
world and affects activists and even apolitical exiles 
everywhere they live, including in the United States.
    Now let me speak about some recommendations. The political 
scientist Yossi Shain, in his book, ``The Frontier of 
Loyalty,'' laid out a three-part test for why states would 
engage in persecution of exiles. These three parts are the 
regime's perception of the threat posed by exiles, a regime's 
available options and skills for suppression through coercion, 
and a regime's cost-benefit calculations for using coercion. 
Regarding the first, authoritarian regimes fundamentally see 
their citizens as subjects to be ruled, not voices to be 
heeded. Any kind of political engagement is taken as a threat. 
We can't change the first part of the equation.
    But we can change the second and the third parts. First, we 
need to blunt the tools of transnational repression or, in 
Shain's vocabulary, weaken the available options and skills 
that a regime has. There are several ways to do this. I think 
INTERPOL is a necessary focus for this panel, and I'm sure 
we'll discuss it widely. The TRAP Act is a welcome step in this 
direction. It should help counter INTERPOL abuse in the United 
States and perhaps globally if it's able to achieve reforms 
within INTERPOL itself.
    Another tool of transnational repression to be blunted is 
commercially available spyware, which has been deployed against 
exiles by countries like Saudi Arabia, China, and others. The 
U.N. Special Rapporteur for Freedom of Expression David Kaye 
has called for tighter regulation of targeted surveillance 
technology and a moratorium on the export of spyware. There's 
new draft U.S. guidance for the export of surveillance 
technology prepared by DRL [the State Department's Bureau of 
Democracy, Human Rights, and Labor]. That's a welcome step, 
placing human rights due diligence at the center of the 
guidance. But this guidance must be translated into mandatory 
regulations governing these exports, including those that carry 
penalties for violations. We cannot rely on industry to self-
regulate in this area.
    Second, the U.S. needs to reduce the benefit of engaging in 
transnational repression. The best way to do this is to support 
targeted diasporas, especially in the United States. I believe 
yesterday the Senate passed the Uighur Human Rights Policy Act, 
which includes measures to protect the Chinese diaspora. This 
is a welcome measure, and I hope it will be reconciled. Freedom 
House supports it.
    In addition, Congress should pursue legislation to support 
all vulnerable diaspora communities in the United States, 
including by providing additional resources to strengthen the 
ability of the FBI and appropriate U.S. law enforcement to 
counter transnational repression campaigns. It should make 
resources available to educate local law enforcement and 
immigration authorities in parts of the country where there are 
high concentrations of vulnerable diasporas.
    Outside of the United States, in its democracy promotion 
work, the United States can reduce the benefits of 
transnational repression by supporting shelter models that 
strengthen the resilience of exiled activists and journalists. 
Last, the United States should show leadership by providing 
safe haven to persecuted individuals. Instead of reducing the 
number of refugees the United States accepts, we should 
significantly increase it.
    Third and finally, the United States needs to raise the 
cost of engaging in transnational repression. On the diplomatic 
front, we should make a consistent practice of issuing private, 
and where necessary public, protests to diplomats and consular 
officials who abuse their positions to intimidate, threaten, or 
undermine the rights and freedoms of exiles and members of 
diasporas in the United States. And we should sanction 
individuals responsible for grave human rights violations 
against exiles, using the Global Magnitsky Act or other 
authorities as appropriate.
    Especially where the persecuting state is a U.S. ally, 
units and individuals should be scrutinized to ensure they do 
not receive security assistance if they're committing human 
rights violations. The United States and other democracies have 
the ability and the responsibility to blunt the tools of 
transnational repression and protect vulnerable exiles.
    Thank you for your time and attention, and I look forward 
to our discussion.
    Mr. Wicker. Thank you very much.
    Mr. Min.

          BRUNO MIN, SENIOR LEGAL AND POLICY ADVISOR, 
                          FAIR TRIALS

    Mr. Min. Thank you, Chair. I'd like to thank the chair and 
the co-chair of the commission for this opportunity to speak at 
this panel. I'm also very thankful that the commission has 
decided to take an interest in what we believe is a very 
important matter. INTERPOL is not subject to any formal 
external effective oversight, so the oversight of member 
countries, and particularly the United States--the largest 
state donor financially speaking to INTERPOL--is particularly 
helpful. Fair Trials has been campaigning for the past 7 years 
or so for the reform of INTERPOL. We believe that INTERPOL 
plays a very important role in making the world a safer place, 
and the system of Red Notices and diffusions are central to the 
fulfillment of that objective.
    Just to get the basics right, Red Notices--as quite rightly 
pointed out earlier--are electronic alerts circulated through 
INTERPOL's systems to seek the location and the arrest of an 
individual--a wanted individual--with a view to extradition. 
They're often described as international arrest warrants, but 
they are not. There is no international legal obligation to act 
upon a Red Notice. Diffusions are electronic alerts that are 
also circulated through INTERPOL's information system that 
carry a request for police cooperation, which can be exactly 
the same as a Red Notice--namely, to seek the location and the 
arrest of a wanted individual. But the key differences between 
Red Notices and diffusions are formality--with diffusions being 
less formal than Red Notices--and also the manner in which they 
are checked and disseminated, which I will come to a little bit 
later.
    The big challenge for Fair Trials is that INTERPOL is not 
always able to ensure that Red Notices and diffusions comply 
with their rules relating to human rights and political 
neutrality, as a result of which we get certain states abusing 
its systems to target dissidents and others in need of 
international protection. Our concerns were outlined in our 
2018 report, ``Dismantling the Tools of Oppression,'' \1\ where 
we identified that there were serious flaws to INTERPOL's 
systems that needed fixing. In summary, those two concerns are, 
one, the ways in which INTERPOL reviews Red Notices and 
diffusions, both prior to their dissemination and after their 
dissemination, and also the ways in which they interpret their 
rules relating to human rights and neutrality.
---------------------------------------------------------------------------
    \1\  https://www.fairtrials.org/publication/dismantling-tools-
oppression-1
---------------------------------------------------------------------------
    I'd like to emphasize, though, that INTERPOL is fully aware 
of these concerns, and they've taken steps to address them 
through a set of reforms adopted, probably for the past 5 years 
or so. At the moment, I think one of the biggest challenges is 
how INTERPOL reviews Red Notices and diffusions prior to and 
during circulation.
    INTERPOL has a team of about 30-40 staff members in the 
general secretariat whose role it is to check Red Notices and 
diffusions so they're not violating their rules. There's a big 
question about how effective these mechanisms are, primarily 
because there are no statistics around them. So we don't know 
of over 10,000 new Red Notices per year how many of those Red 
Notice requests get refused. Same goes for diffusions as well. 
If we even had just very basic data, just a percentage of how 
many Red Notices are rejected, that would persuade us to have a 
little more confidence that they are doing something.
    And the other big challenge is that we simply have no idea 
what the procedures are for checking these Red Notice requests. 
We don't know, for example, what would trigger INTERPOL to 
carry out a more cautious assessment of whether or not a Red 
Notice request is compliant with its rules. We also don't know 
what kind of information they would consult if they find that a 
Red Notice request requires a bit more review. Whatever these 
processes are wasn't quite clear from the cases that we see. We 
see Red Notices being issued in very clear cases of abuse, 
including against refugees who have a very public profile. So 
what we can tell is that whatever these systems are, they're 
simply not working as well as they should.
    And in a way, that's not very surprising, considering 
particularly that we have about 30 to 40 staff members at 
INTERPOL reviewing over 10,000 new Red Notices per year, and on 
top of that about 50,000 diffusions per year as well. You don't 
need to do very complicated math to figure out that that's an 
enormously difficult task. The other big problem here is about 
diffusions as well, which I mentioned are checked in a 
different way to Red Notices. The problem is that they are not 
subject to the same sort of scrutiny as Red Notices, as a 
result of which there is a risk that unchecked data--possibly 
very devastating data--can enter into national databases and 
stay there. This is what has been causing the very high-profile 
arrests of Bill Browder.
    For the lack of time, I won't be able to go into too much 
detail about the other concerns we had. Just very briefly, 
there were lots of concerns about the effectiveness of 
INTERPOL's redress mechanism, the Commission for the Control of 
INTERPOL's File, or the CCF. In its previous form, the 
procedures of the CCF had basically no regard for basic due 
process standards, and it was unable to even make binding 
decisions, making it pretty ineffective as a redress mechanism. 
Fortunately, INTERPOL has taken steps to dramatically improve 
the CCF, as a result of which it's a much more fair process, 
and it's more independent and more capable of performing its 
role. But there are still problems in relation to its 
transparency, the fact that it's understaffed and under 
resourced. It's worth mentioning that it is not possible to 
challenge the CCF's decisions. So if you are affected by an 
abusive Red Notice and you don't get the right outcome, then 
there is no further recourse.
    Finally, Fair Trials also had concerns about the 
interpretation of INTERPOL's rules, particularly in relation to 
human rights, because there is very little information about 
how those rules are interpreted. One policy development, a very 
positive development, over the past 5 years is the adoption of 
the refugee policy, which aims to protect individuals who have 
been granted refugee status under international law. But even 
there, although there are many positive things about it, we 
find that the scope of that policy is rather limited, and there 
are some problems in its effective implementation, given the 
first challenge that I talked about: INTERPOL's ability to weed 
out bad Red Notice requests.
    In terms of our recommendations to member countries, the 
main thing that I wanted to say was that INTERPOL has been on a 
path of reform, making gradual improvements over the past few 
years. It needs encouragement to do that--not only to make sure 
that its current reforms are effectively implemented but also 
to be encouraged to adopt further reforms to address the rest 
of the concerns that remain. The other thing that member 
countries, and the United States included, should do, we think, 
is to help INTERPOL to do what they're supposed to do--that 
might be in relation to its decisionmaking, helping them make 
the right decisions in the cases that they see, and also to 
alert them of potential patterns of abuse.
    A really crucial thing is the lack of funding at INTERPOL 
for these very important mechanisms that keep their systems in 
check. The Commission for the Control of INTERPOL's Files and 
the specialist team within INTERPOL that reviews Red Notice 
requests and diffusions are currently understaffed, in our 
opinion, and under resourced. They quite often depend on the 
generosity of member states to fund them and resource them. My 
other recommendations are outlined in the written briefing that 
I've submitted in advance. Of course, I'd be happy to discuss 
them in more detail.
    Thank you.
    Mr. Wicker. We appreciate those recommendations.
    And I think we're going to depart at this point from our 
assigned procedure. There's been a vote called on the House 
floor. And I want to give Mr. Veasey a chance to ask a question 
or two before these House members have to beat the clock. So, 
Mr. Veasey, you're recognized for questions. And then we'll 
take Ms. Grossman's testimony.

  HON. MARC VEASEY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Veasey. Thank you very much. I really had one question. 
I would just like to try to get into the mindset of the people 
that issue these--is it red flags?--because obviously that 
takes away time and resources when they issue these for people 
that are just dissenters from very serious violators out there 
that could be committing very serious acts like terrorism acts. 
What I'm trying to figure out is knowing that they could be 
taking away resources from more serious matters, why do they 
continue to do that? Obviously if there was a terrorism act 
that took place in Turkey that could have been prevented, 
because they were just trying to squash dissenters, obviously 
you wouldn't want that sort of blood on your hands. So if you 
could put me into the mindset of some of the leaders over 
there. We, obviously, in the United States, see terrorism as 
very serious. We probably place it on probably the highest of 
high priority. But maybe for them dissenting is just as big of 
a deal as terrorism. Can you just sort of put me into their 
mindset?
    Mr. Cooley. Sure. Thank you for that question.
    I think part of the shift that's happened, especially over 
the last 15 years, is looking at the security and insecurity of 
their own rule and what are the sources of threat, right? So 
one source of threat is, of course, terrorists. In a post-9/11 
world--a world of sort of global radicalization, these kinds of 
frames are a foremost concern around the world. But what 
happened, particularly in the mid-2000s, is that all forms of 
domestic opposition started to be recoded as threatening--as 
security threats. Security services who had been active in 
going after actual terrorist threats and fears of 
radicalization, started turning these same surveillance 
instruments, these same tools onto also political opponents, 
right?
    So now we have a broad array of regime opposition that 
includes what we would regard possibly as terrorists, as well 
as ordinary domestic opponents. In countries like Tajikistan a 
political party that as part of the ruling coalition was banned 
in 2015 with all of its leadership rebranded terrorists and 
going abroad. So I think that's the switch that's happening.
    Mr. Schenkkan. If I could just add one point to that, too--
I pretty much agree with what Alex said. The cost is actually 
quite low of inputting these requests. In the post-coup 
environment in Turkey, what we saw was essentially a batch 
upload. If you can imagine, you have a spreadsheet of names. 
That spreadsheet could have 20,000 names on it. Once the system 
is automated, you can essentially--I'm not speaking about the 
actual system--just upload these names and generate requests--
or, seek to generate requests. So the time spent--the effort 
spent--is low, because the technology enables you to diffuse 
those requests very rapidly.
    That's why it's so important to get insight into the 
processes themselves and to try to improve the processes, 
because that's really a due process question as I hope Bruno 
would agree. This is a due process question. How do you examine 
what can, in its impacts, have the effect of being an arrest 
warrant? That means you need a real process for examining them 
and making sure that they're not in violation.
    Mr. Wicker. Other questions from either Mr. Veasey or Mr. 
Wilson before we turn to Ms. Grossman?
    Okay, Ms. Grossman, you're recognized. And I think you're 
probably going to talk more about individual examples.

    SANDRA A. GROSSMAN, PARTNER, GROSSMAN YOUNG & HAMMOND, 
                      IMMIGRATION LAW, LLC

    Ms. Grossman. That's right. As the only U.S. immigration 
attorney on this panel, I'm going to really focus on that 
topic. In my work as an immigration attorney over the past few 
years, I have seen how oppressive regimes are actually 
manipulating the U.S. immigration system to persecute political 
dissidents seeking refuge in this country. They are utilizing 
our justice system to arrest and jail political dissidents. And 
the manner in which this is happening is quite clear. Law 
enforcement agencies, in particular Immigration and Customs 
Enforcement, or ICE, utilize Red Notices to target foreign 
nationals, many times asylum seekers, and to detain them and 
press for their deportation.
    The Department of Justice does not consider a Red Notice to 
be sufficient basis for an arrest. It does not meet the 
probable cause standard under the Fourth Amendment, and really 
offers little assurance into the legitimacy of the allegations 
it concerns. Unfortunately, what we're observing in the 
immigration field is that ICE is treating many Red Notices as 
conclusive evidence of criminality, with consequences on the 
basic rights of victims of persecution. Even worse, this blind 
acceptance of an INTERPOL communication without scrutiny can, 
and often does, turn ICE officials and our own immigration 
judges into unwitting agents of repressive regimes.
    I'd like to share with you some real-life examples of 
INTERPOL abuse that are currently processing through our 
immigration system. My client, a citizen of Russia, entered the 
U.S. with a valid visa and applied for asylum before the U.S. 
Citizenship and Immigration Services [USCIS]. His persecution 
claim is based on spurious and persecutory tax fraud charges 
lodged against him by the same tax office that prosecuted 
Sergei Magnitsky. He appeared for what was supposed to be a 
non-adversarial asylum interview before USCIS. Instead, ICE 
arrived at the interview and detained him. He spent 4 months in 
jail before being released on a very high bond.
    INTERPOL actually canceled the Red Notice, recognizing its 
illegitimacy. However, my client and his family had already 
suffered the worst effects of the Red Notice through the U.S. 
immigration system. Years later, his case continues to languish 
in U.S. immigration court. We filed a Freedom of Information 
Act request in his case, which revealed that ICE categorized my 
client as a danger to the community and a flight risk based on 
nothing more than the existence of the Red Notice. So in this 
very specific example, ICE agents and the immigration courts 
became tools in advancing bogus criminal allegations made by an 
autocratic government. There are many, many more examples.
    In another case, a U.S. citizen filed to obtain lawful 
permanent residency for her father, a citizen of Armenia. Her 
father was the subject of a Red Notice that arose from a 
private business dispute with corrupt Armenian officials. ICE 
went to his home and detained him. The immigration judge denied 
a request to lower an extremely high bond amount, and this was 
in spite of extensive ties with U.S. citizen family members and 
his eligibility for permanent residence. The sole stated reason 
for refusing to lower the bond amount was the existence of the 
INTERPOL Red Notice. In fact, a Red Notice actually decreases 
flight risk and makes travel a lot more difficult. 
Nevertheless, DHS officials and immigration judges alike 
consistently miss this point, all at the expense of the liberty 
of persecuted persons, like my Armenian and Russian clients.
    I'd also like to point out that a recent survey issued by 
the American Immigration Lawyers Association--which has more 
than 16,000 members--uncovered many more similar examples of 
INTERPOL abuse in the United States. As my colleagues here have 
testified today, INTERPOL does serve a good purpose, and the 
built-in human rights protections found in the constitution and 
subsidiary rules are sound. They only work if they are properly 
applied.
    My recommendation is that part of holding INTERPOL and the 
Commission for the Control of INTERPOL's Files to a higher 
standard is requiring them to have greater transparency. 
Jurisprudence and reports must be published, and the 
organization must allow for more access to information and 
opportunities for advocacy, especially for persons who allege 
INTERPOL abuse. Within our own borders, we must do a better job 
at ensuring that immigration officials understand that the mere 
existence of a Red Notice, especially when it concerns an 
asylum seeker or affects the interests of U.S. citizens or 
lawful permanent residents, cannot be considered conclusive 
evidence of criminality.
    If the Transnational Repression Accountability and 
Prevention Act accomplishes even some of these goals, it will 
be a much-needed first step to address the problem of INTERPOL 
abuse and to prevent our justice and immigration from being 
further manipulated by autocratic regimes.
    Thank you.
    Mr. Wicker. Well, thank you very much to all four of you 
for your excellent testimony.
    Who can tell us how much the United States donates to 
INTERPOL each year?
    Mr. Min. I'm afraid I don't have the exact statistics, 
although there might be other people in the room who might be 
able to get the statistics for you. The United States, at least 
among states donors, is easily the largest donor to INTERPOL. 
But I don't have the statistics.
    Mr. Wicker. Well, try to get that to us.
    Ms. Grossman. I believe I do, sir.
    Mr. Wicker. Okay, yes.
    Ms. Grossman. This is, in part, thanks to the research of 
Dr. Ted Bromund. It looks like the United States contributed 
19.4 percent in 2019, 11 million euros. And this is compared to 
Japan, which is second, who contributed 6 million euros. And 
China third, Russia, then Turkey. The United States is, by far, 
the greatest statutory contributor to INTERPOL.
    Mr. Wicker. When was INTERPOL formed?
    Mr. Min. I believe INTERPOL was formed around, I think, the 
1930s. It's often criticized for the fact that I think there 
was German involvement or German leadership in the creation of 
INTERPOL at the time. But that's the historic origin of the 
organization. I think it's evolved considerably since then, 
obviously. It started very much, I think, like a 
nongovernmental organization, a policeman's club. And now it's 
a much more formal entity.
    Mr. Wicker. Was it abused during the run-up to Nazism in 
Germany?
    Mr. Min. I don't know about that. What we would say is that 
the phenomenon of Red Notices, and diffusions, and other 
INTERPOL tools being misused at this scale is a relatively new 
phenomenon. Obviously Red Notices have been around for decades. 
But it's relatively recent that they can be circulated with 
this much ease. And that's primarily due to technological 
developments, first of all, and also the growing understanding 
amongst states that international cooperation on police matters 
is absolutely crucial these days, given the global nature of 
security threats and crime.
    Mr. Wicker. No question, it's a vital tool. No question 
it's being abused on a large scale.
    Who was giving--I'm jotting notes here and trying to juggle 
members who had to go vote. Who was giving us information--was 
it you, Mr. Min--about the number of Red Notices per year and 
the number of diffusions per year, in the entirety of INTERPOL?
    Mr. Min. Yes, I think the latest statistics were something 
on the region of around 13,000 or 14,000 new Red Notices per 
year, and about 50,000 new diffusions per year. And those, I 
think, are just diffusions that call on the location and the 
arrest of individuals. I think it's worth mentioning at this 
point that the number of new diffusions issued jumped 
dramatically in the past couple of years. I think INTERPOL 
would attribute that primarily to the increasing use of their 
systems for foreign terrorist fighter alerts. But there are 
concerns that as there are better safeguards that prevent the 
misuse of Red Notices, countries are turning to diffusions 
instead, which have a less stringent checking mechanism.
    Mr. Wicker. Okay, well, tell us about that. Let's give the 
commission and our friends listening worldwide those 
differences. When would you--and you want to jump in, Mr. 
Schenkkan--when would a country decide to go through the more 
difficult procedure of a Red Notice? What does that entail? And 
then why is a diffusion easier?
    Mr. Schenkkan. I'll also defer, I think, to Bruno and to 
Sandra Grossman on these matters. But I would say that the 
concern that observers of INTERPOL have is that the diffusion 
process essentially sends the communication directly. So 
INTERPOL is acting as a middleman, but without necessarily a 
process by which that diffusion is reviewed.
    Mr. Wicker. So they don't vet the diffusion at----
    Mr. Schenkkan. At the moment of submission.
    Mr. Min. Right. I mean, there's some unclarity on this. And 
what would be ideal would be someone from INTERPOL to explain 
that to us in that much more detail.
    So the reason why countries would use Red Notices instead 
of diffusions is that Red Notices are meant to have a higher 
injunctive value. Red Notices are meant to be more serious. And 
that's the reason why they use that, whereas diffusions are 
meant to be more informal kind of casual variants, I suppose, 
in lots of situations.
    So in terms of how the two are different in terms of how 
they're being checked, with Red Notices the information that 
eventually gets uploaded onto Red Notices doesn't become 
visible to other member countries until the request for the Red 
Notice is checked. So the country would send the request to 
INTERPOL's general secretariat saying that they want to have a 
Red Notice disseminated and providing all the details. That 
would be checked by INTERPOL. And then only if it's found to be 
compliant would that Red Notice be disseminated to all the 
member countries.
    Whereas with diffusions, diffusions start their lives off 
pretty much like emails--like normal electronic communications 
between member countries of INTERPOL. And it is only after--
when that information is sent out that INTERPOL is able to 
review that information. And only after it has done that is it 
able to validate that communication as a valid diffusion.
    Ms. Grossman. And I'd just like to point out, the 
organization is supposed to properly vet Red Notice requests 
before they are sent out. The organization has very sound rules 
in its constitution: the principle of neutrality, the idea that 
any request by a member state has to comply with the spirit of 
the Universal Declaration of Human Rights.
    But what's nebulous in these cases is exactly how INTERPOL 
is going about the process of making sure that these requests 
comply with the rules. And clearly there are some significant 
gaps there that are allowing some of these requests to be 
emitted. And then what makes the situation worse is that the 
mechanisms for then addressing illegitimate requests is 
extremely lengthy, inefficient. There's very little access for 
information. You know, you can write to the Commission for the 
Control of INTERPOL's Files to get a review of your case but, 
as someone else here pointed out, there is no appeal. Sometimes 
you're not able to learn exactly the details of the allegation. 
So it's a very difficult process that leaves victims with 
little opportunity for redress.
    Mr. Wicker. Mr. Min, on this CCF--that stands for 
Commission for the Control of Files--it's the body which 
handles requests from individuals seeking access to or removal 
of information from INTERPOL's files--how well is this 
commission staffed? How big is this commission? How many 
members and how many staff?
    Mr. Min. So the commission is structured in a way that it's 
divided into two chambers. One deals with kind of data 
protection issues, and the other deals with complaints. I think 
the division is three-four. So there are four, I think, 
commissioners, I think, in the complaints chamber, if that's 
right?
    Ms. Grossman. There's three commissioners in the 
supervisory and advisory chamber, and then there's five----
    Mr. Min. Five, sorry. Thank you. And they sit a few times a 
year to decide on requests and complaints. But they work with a 
team of, I think, around a dozen people. There's like a 
secretariat for the Commission for the Control of INTERPOL's 
Files, who are there full time. And they're the ones who really 
do most of the leg work. But even then, I mean, I think what we 
hear from them, from speaking to the Commission for the Control 
of INTERPOL's Files, is that there's always a big challenge in 
terms of sifting through all these requests with the limited 
funding and staff resources that they have. So it was very 
disappointing that in last year's budget for INTERPOL it seemed 
as though the staffing had increased by one, but the funding 
for the CCF had actually decreased.
    Mr. Wicker. Where is it housed?
    Mr. Min. It's in Lyon. It's basically next to INTERPOL.
    Mr. Wicker. In the most celebrated case that I know of, the 
case of Bill Browder, how is it that there's just not a flag 
anytime the Russian Federation submits a Red Notice on Bill 
Browder, that this is probably bogus and it's probably just a 
rehashing of what's already been determined to be invalid? Who 
wants to try that?
    Mr. Min. If I can just jump in there as well, I think the 
main issue about Mr. Browder's case is that these are 
diffusions. And for the reasons that we mentioned earlier, 
diffusions are notoriously difficult to check for INTERPOL, 
because the information that forms the basis of diffusions are 
sent out directly between states. The real problem, I think, is 
that we can always delete Red Notices and diffusions after 
they've been disseminated through the Commission for the 
Control of INTERPOL's Files, or whatever other means.
    But the frank reality is that in the policing context, I'd 
be very surprised if data was ever really deleted. The data 
that's being circulated via and on INTERPOL's systems is quite 
often transferred into domestic databases. And INTERPOL might, 
for reasons that a Red Notice or a diffusion is incompliant 
with its rules, delete that from their databases and ask other 
countries to delete copies of that information from their 
domestic databases, but there's a big problem with compliance.
    And it was quite telling last year, I think, a question was 
asked in the German Bundestag about how often the German police 
complied with INTERPOL's requests to delete Red Notices and 
diffusions. The response that came back was that they delete 
the vast majority, but they don't delete all of them. So given 
that Germany's been particularly vocal about misuse of 
INTERPOL, we found that quite interesting and surprising.
    Mr. Wicker. Let me just ask this--and unfortunately they 
tell me there's a car waiting for me outside at 11:30 to take 
me to another meeting, so we're scheduled way too tight for 
this important matter, and I apologize for that--is there 
anything in the constitution or bylaws or procedures of 
INTERPOL to stop resubmitting these Notices and diffusions? Is 
there any sanctions or penalties?
    Yes, ma'am, Ms. Grossman?
    Ms. Grossman. If I may, Senator Wicker, there is a 
possibility within INTERPOL to make preventative requests. And 
we have done that in cases where there are blatant human rights 
abuses. And also I'd like to point out that in the Bill Browder 
case INTERPOL did stop issuing diffusions and Red Notices 
against him in recognition of the illegitimacy of those 
requests from Russia. So there are some mechanisms where one is 
able to make this kind of a request. The issue is too that 
INTERPOL has very stringent rules on admissibility. It's an 
organization that is built to respond to the requests of member 
states for law enforcement purposes. So when you as an 
individual are arguing that you are a victim of human rights 
abuses, you have to show that your request is admissible. And 
you have to know that, in fact, you are included on INTERPOL 
databases already. So there again, while there are avenues for 
redress, they are difficult to access.
    Mr. Min. On the point about how they're able to prevent 
repeated cases of abuse on exactly the same case, we haven't 
had a very convincing, in my opinion, answer from INTERPOL as 
to how they do that. We've been given assurance that once a Red 
Notice, for example, has been found to be incompliant with its 
rules, there are systems to make sure that repeat attempts of 
Red Notice requests are refused because, again, there's a 
question about diffusions, which are not circulated in the same 
manner.
    But we have seen at least one example of that system not 
working. And that was about 2, 3 years ago, where we had one 
individual who claimed asylum from a Latin American country. 
And once she did that, and she got her refugee status, she 
contacted INTERPOL immediately to say: `I'm very concerned that 
I might get a Red Notice against me. This is proof of my 
refugee status. Could you please block any attempts at getting 
a Red Notice?' That didn't work, and she was arrested on the 
basis of a Red Notice in another Latin American country within 
a matter of months.
    So there is a big question about how efficiently that 
system works. In terms of what can be done in terms of repeat 
offenders--as in, the repeat offending countries. It's well 
within INTERPOL's functions to restrict access to its databases 
to countries that are repeat offenders. My understanding is 
that that doesn't happen that often. We don't know of any kind 
of specific examples of that being done. And this is partly to 
do with them being a membership organization and being 
sensitive to the opinions of other member countries, perhaps.
    Mr. Wicker. Mr. Cooley--really I'm going to be chastised if 
I don't make this next meeting--Mr. Schenkkan made specific 
recommendations. Is he absolutely right-on on all of them? Do 
you support wholeheartedly what he had to say, or would you 
make any modifications or offer some advice to us? And then 
I'll ask the other two also.
    Mr. Cooley. No, on the specific recommendations I would 
wholeheartedly support those.
    My final comment would be a general one, which is many of 
these organizations that the commission deals with on the 
international, regional front, the overall change in the 
international context has also changed authoritarians' 
calculations. There's a certain sense that there's a good-faith 
nature to the protections that are in INTERPOL that we're not 
going to abuse them for these sort of constitutional reasons. 
Once that good faith is no longer there, then there are all 
sorts of manners in which these safeguards and protections 
within the DNA of these organizations can be twisted and 
manipulated. So that's just my word of warning.
    Mr. Wicker. Mr. Min? Were those good recommendations?
    Mr. Min. Mr. Schenkkan's recommendations?
    Mr. Wicker. Yes.
    Mr. Min. I do agree with Mr. Schenkkan's recommendations, 
yes.
    Mr. Wicker. Okay.
    Ms. Grossman. I agree with them as well. I would like to 
point out just one addition to your question about how much the 
United States contributes. And what I cited to you were the 
statutory contributions. It also makes additional contributions 
on a per project basis to INTERPOL's trust fund and special 
account. So I do have statistics from 2017. The U.S. Department 
of State supported projects through INTERPOL with a total value 
of 2.6 million euros. And then there are other projects, 
apparently memoranda of understanding with the FBI, which 
result in payments of unspecified amounts to INTERPOL. So we're 
looking at at least 13 million euros in U.S. statutory and 
project contributions in 2017.
    So the United States has the possibility to influence what 
happens in this organization and to advocate that the 
organization utilize its best efforts to apply the rules that 
it has in the constitution and in its subsidiary rules.
    Mr. Wicker. And I hope this hearing provides a bit of a 
push, among others, that need to be made in that regard. Your 
testimony is that different organs of the U.S. Government view 
these Notices and diffusions different?
    Ms. Grossman. Yes, Senator. My testimony is centered around 
the fact that the U.S. Department of Justice has a very clear 
policy that Red Notices do not meet our minimum standards for 
arrest under our Constitution. Nevertheless, that message isn't 
getting across to decisionmakers in our immigration system who 
are using Red Notices to target foreign nationals in the United 
States. Many times these individuals are fleeing persecution in 
their home countries.
    Mr. Wicker. Good information to have and something for us 
to follow up on.
    Let me just observe that it's--this hearing is about a 
broad tool--about a broad subject. And that's transnational 
repression. My questions have centered in on INTERPOL, because 
it's something that's so visible and so egregious, that we have 
so many examples of. It seems that we come down to the real 
problem here and that is that there are a large number of 
members of INTERPOL, including some of our allies, who are 
frankly international scofflaws. And to the extent that we have 
to defer to these governments who take at face value what they 
send to us, that has become a real problem, and a real abuse. 
I, for one, am determined to be part of a solution to getting 
to the bottom of this and reversing that.
    Thank you very much for being here. Thanks to all of you 
for attending and for, I hope, thousands and thousands of 
people who are participating with us on livestream today.
    Thank you and, unfortunately, this hearing is adjourned.
    [Whereupon, at 11:31 a.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    This hearing of the Helsinki Commission will come to order.
    Good morning. Welcome to this hearing on ``Tools of 
Transnational Repression: How Autocrats Punish Dissent 
Overseas.''
    We have assembled an expert panel to probe how autocratic 
states project repressive force beyond their borders to silence 
dissidents, human rights defenders, journalists, and other 
perceived enemies overseas.
    Autocrats today have access to a range of tools to extend 
their reach by thousands of miles, sometimes in fractions of a 
second. Some schemes rely on 21st century technologies to hack, 
surveil, and intimidate targets, while others use blunter 
tactics such as extortion, abduction, and assassination.
    This practice of transnational repression constitutes a 
wholesale assault on the rule of law internationally. It 
requires the attention of all democratic nations. This 
Commission is particularly concerned by the politically-
motivated abuse of INTERPOL by autocratic states wishing to 
harass and detain their opponents overseas, often in the hopes 
of trying them on bogus criminal charges.
    INTERPOL is a legitimate instrument for international law 
enforcement cooperation, linking the law enforcement arms of 
its 194 member countries through a global communications and 
database network. The United States relies on INTERPOL systems 
daily to bring criminals to justice and foil threats to global 
security. As with the UN, however, INTERPOL's broad membership 
leaves it open to manipulation by authoritarians.
    Repressive regimes have seized on INTERPOL's potent tools 
to harass and detain their perceived enemies anywhere in the 
world. INTERPOL Red Notices and Diffusions are among the most 
commonly abused instruments, as they constitute international 
requests for detention and extradition.
    The Helsinki Commission regularly receives reports from 
dissidents, journalists, and human rights defenders across the 
OSCE region who are the targets of INTERPOL Notices or 
Diffusions issued by autocratic states on trumped up charges.
    Perhaps the most prominent case is that of outspoken 
Kremlin critic Bill Browder. After his lawyer Sergei Magnitsky 
was murdered by Russian thugs for exposing state-sponsored 
corruption, Mr. Browder emerged as a champion of transparency 
and accountability for President Putin's misrule. In response, 
the Kremlin embarked on a more than decade-long campaign to 
silence him.
    To date, Russia has issued at least eight politically-
motivated Diffusions against Mr. Browder, and yet--to our 
knowledge--INTERPOL has not penalized Russia in any way to 
punish or deter this abuse. To the contrary, Russia felt 
comfortable enough in its position in the organization to have 
proposed a leading candidate for the Presidency of INTERPOL 
last fall. At the time, I joined with fellow Helsinki 
Commissioners Shaheen and Rubio and Senator Coons to denounce 
the Russian candidacy, which was ultimately defeated after an 
outcry from the U.S. and our European allies.
    Of course, Mr. Browder is one victim--and Russia one 
abuser--among many. Ahead of this hearing, the Helsinki 
Commission received statements from individuals from China, 
Turkey, Uzbekistan, and Tajikistan who have been targeted by 
authorities using INTERPOL--without objection, I request that 
these be entered into the record of this hearing.
    The Helsinki Commission is taking action to address these 
assaults on the rule of law. Chairman Alcee Hastings and I are 
preparing to introduce bipartisan legislation in the House and 
Senate to tackle the abuse of INTERPOL by autocrats. The 
Transnational Repression Accountability and Prevention Act will 
lay out priorities for U.S. engagement with INTERPOL, 
encourages executive branch agencies to improve processes for 
responding to politically-motivated INTERPOL notices, and 
codifies strict limits on how INTERPOL communications can be 
used by U.S. authorities against individuals in our country. In 
addition, this legislation will require the State Department to 
report on trends in transnational repression in its annual 
human rights report.
    The U.S. has long been a champion of reform and good 
governance within INTERPOL. Since 2016, INTERPOL--with U.S. 
support--has enhanced vetting of Notices and Diffusions, 
created special protections for refugees, instituted greater 
transparency regarding its adjudication of complaints from 
victims, made rulings on complaints binding, and begun 
reviewing thousands of longstanding Notices and Diffusions. But 
more remains to be done. The organization is in dire need of 
greater transparency, and countries should face consequences--
including being denied leadership positions--for repeated 
abuses.
    Our witnesses this morning will provide expert testimony on 
the scale of this problem and policy recommendations to address 
it. Before I introduce them, however, I would like to recognize 
other commissioners for opening statements.
    Now to our witnesses:
    First, we will hear from Alexander Cooley, a political 
science professor at Barnard College and director of Columbia 
University's Harriman Institute. Professor Cooley wrote the 
book on extra-territorial authoritarian practices: Dictators 
without Borders: Power and Money in Central Asia, which was co-
authored with John Heathershaw, and published in 2017. Drawing 
on his scholarly work, Professor Cooley will explain the 
origins, scope, and trajectory of transnational repression.
    Next, Nate Schenkkan will provide concrete examples of 
these authoritarian practices based on his work as director of 
special research at Freedom House.
    Our third witness, Bruno Min, is senior legal and policy 
advisor at Fair Trials, an international non-profit that 
monitors criminal justice standards around the world. Mr. Min 
will present his experience leading Fair Trials' advocacy 
relating to INTERPOL and other examples of cross-border justice 
and discrimination.
    Finally, we will hear from Sandra A. Grossman, an 
immigration lawyer and founding partner of Grossman Young & 
Hammond, where she has honed her expertise in complex and 
sensitive immigration issues, often involving clients targeted 
by politically-motivated INTERPOL communications.
    I will refer you to the materials in your folders for our 
witnesses' full bios. I look forward to their testimonies and 
hereby invite Professor Cooley to begin his testimony.

 Prepared Statement of Hon. Alcee L. Hastings, Chairman, Commission on 
                   Security and Cooperation in Europe

    The TRAP Act is aimed in part at addressing the plight of 
individuals such as Russian asylum seeker Alexey Kharis, whose 
harrowing tale of mistreatment at the hands of Russian and U.S. 
authorities has been reported in The Atlantic and New York 
Times. Mr. Kharis submitted testimony to the Helsinki 
Commission for this hearing, which I request be included in the 
record, without objection.
    A businessman and father of two, Mr. Kharis relocated to 
the U.S. five years ago after coming under government pressure 
in Russia to testify against a whistleblower who had revealed 
government corruption in a business venture. Fleeing government 
threats and politically-motivated charges of financial crimes 
in Vladivostok, Mr. Kharis landed in California on a valid 
visa. Despite his attempts to clear his name in Russia, 
authorities there persisted and ultimately issued an INTERPOL 
Red Notice seeking his removal from the United States to face 
trial.
    In 2016, Mr. Kharis applied for asylum, citing in part the 
Russian Red Notice. Unbeknownst to him, however, U.S. 
immigration authorities had already used that very Red Notice 
as justification to revoke his visa. When Mr. Kharis appeared 
in person to receive his asylum decision the following year, 
ICE officers instead arrested him and placed him in removal 
proceedings that risked sending him back to face the injustice 
of Russia's legal system.
    Mr. Kharis spent the next 15 months in detention pleading 
his innocence. In his testimony to the Commission, Mr. Kharis 
recounts: ``I ended up having to take my case to a federal 
court, which ordered the immigration judge to consider evidence 
that `Russia is a frequent abuser of INTERPOL's lax procedural 
checks to obtaining a Red Notice,' and that the Department of 
Justice does not consider INTERPOL Red Notices, on their own, 
as a basis for arrest.'' Mr. Kharis was finally released in 
November 2018 and earlier this year had his asylum denial 
overturned. Nevertheless, he is required to wear an ankle 
monitor and is still awaiting a final asylum decision.
    Mr. Kharis' experience demonstrates the need for 
Congressional action to tackle autocratic abuse of INTERPOL. We 
cannot allow autocratic regimes to manipulate the U.S. justice 
system to carry out reprisals against their political 
opponents. Additionally, repressive regimes must face real 
costs for abusing legitimate international law enforcement 
mechanisms, such as INTERPOL. INTERPOL abuse will not stop 
until it is punished.
    Dolkun Isa

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    I would like to thank Chairman Hastings and Co-Chairman 
Wicker for their leadership of the Helsinki Commission and for 
convening this hearing on a topic of tremendous importance to 
all of us who recognize the rule of law as a pillar of free, 
peaceful, and just democratic societies.
    While so many Americans enjoy the freedom to speak and 
write freely--and critically--about their government, elsewhere 
in the world millions live in conditions under which voicing 
any public opposition to political forces is a life-threatening 
activity.
    Autocrats often go to great lengths to stifle dissent. They 
shut down access to the internet and communication channels, 
they ban free and independent media, employ propaganda to prop 
up their cult of personality and nationalism, and to silence 
dissenting voices.
    They often scapegoat and demonize vulnerable minorities, 
preying on the fears of the masses to build popular support. 
Autocrats also weaken the checks and balances on government 
power needed to preserve human rights and the rule of law, such 
as an independent judiciary. They often crack down on civil 
society groups and NGOs by limiting their ability to operate in 
their country.
    As evidenced from the horrific crisis in Venezuela, to the 
targeting of indigenous environmental advocate Berta Caceras in 
Honduras, to the crackdown and deadly targeting of journalists 
from Brazil--to the Philippines--to India--to the Gambia, and 
indeed across the world, autocratic leaders will stop at 
nothing perpetuating their own power by any means necessary.
    Nor do autocrats confine intimidation and violence against 
dissenters to their countries' borders; more and more we see 
regimes abusing the tools of international diplomacy and law 
enforcement to silence those who dare to speak against them.
    Next month we will mark the one-year anniversary of the 
assassination of Saudi journalist Jamal Khashoggi at the Saudi 
Consulate in Istanbul. This politically motivated killing by a 
team of Saudi regime henchmen underscores the motivation that 
authoritarian governments have to silence their critics 
anywhere in the world and the difficulty we face in bringing 
the perpetrators and masterminds of such crimes to justice.
    Khashoggi's killing revealed the confidence of senior Saudi 
officials who felt they could export Saudi-style repression to 
a European nation with impunity.
    In response to Khashoggi's murder, I have called for steps 
to hold the regime accountable. Over the past year, I pressed 
the Trump Administration to apply Global Magnitsky sanctions to 
the masterminds of Khashoggi's murder--not just its 
implementers. Although I welcomed the sanctioning of 17 
conspirators last year, I remain dismayed by the 
Administration's refusal to respond--as required by law--to 
Congressional inquiries concerning the complicity of senior 
Saudi officials, including Crown Prince Muhammad bin Salman.
    While Turkey has led international calls for Saudi 
accountability in the case of Jamal Khashoggi, President 
Erdogan has undertaken his own campaign against his political 
opponents overseas.
    Just last month, Turkish officials confirmed that its 
intelligence forces abducted a suspected follower of Turkish 
religious leader Fethullah Gulen from Malaysia and rendered him 
to Turkey to face terrorism charges. Our witness this morning, 
Nate Schenkkan, has tracked this phenomenon closely, finding 
open source evidence of such abductions in at least three 
countries.
    Describing the broader scale of Turkey's global dragnet in 
Foreign Affairs last year, Mr. Schenkkan wrote that ``In at 
least 46 countries across four continents, Turkey has pursued 
an aggressive policy to silence its perceived enemies and has 
allegedly used INTERPOL as a political tool to target its 
opponents.''
    Ahead of today's hearing, the Helsinki Commission received 
a harrowing statement from a victim of Turkey's abuse of 
INTERPOL: veteran Turkish journalist Ilhan Tanir. Mr. Chairman, 
I request that Mr. Tanir's statement be entered in the record.
    I echo Co-Chairman Wicker's concerns about Russia's 
repeated targeting of Bill Browder using INTERPOL Diffusions, 
most recently earlier this year. How many times will Russia be 
allowed to drag Mr. Browder into a fight to clear his name?
    Accountability and deterrence are our most potent tools in 
resisting the spread of authoritarian lawlessness across 
borders. This is why I led the fight for the original Magnitsky 
Act and championed its worldwide expansion under Global 
Magnitsky.
    This November 16th marks the 10th anniversary of the 
suspicious death of Sergei Magnitsky in a Moscow prison 
following 11 months in custody. Magnitsky, a tax attorney, drew 
attention to large-scale theft from the Russian state, and was 
jailed as a result. As Putin said dismissively of his death at 
the time: ``Must we make a story out of each and every case?'' 
To those who suffer under repressive efforts to silence their 
voices, we must. The law I sponsored bearing Magnitsky's name 
was passed in 2012, and its global counterpart was enacted in 
2016. Since the ratification of these laws, we have made 113 
designations worldwide based on allegations of corruption and 
gross human rights abuses. I look forward to the testimony of 
our witnesses about the scope of transnational repression and 
recommendations for how to improve U.S. policy responses to 
this growing threat.

   Prepared Statement of Alexander Cooley, Director of the Harriman 
    Institute for the Study of Russia, Eurasia, and Eastern Europe, 
                  Columbia University and Claire Tow 
            Professor of Political Science, Barnard College

    Chairman Hastings, Co-Chairman Wicker and Members of the 
Commission,
    Thank you for inviting me to testify about the topic of 
transnational repression as part of the hearing on reforming 
INTERPOL. I request that my written testimony be admitted into 
the record.
    My aim today is to explain why autocrats are increasingly 
projecting their reach overseas and highlight how INTERPOL has 
become a weapon in their efforts to target exiled political 
opponents. The TRAP Act is a critical tool to safeguard human 
rights in the international policing organization and to 
provide principled leadership that counters alarming 
transnational trends.

What is Transnational Repression?

    By ``transnational repression'' I refer to the targeting of 

co-national political opponents, civil society advocates, non-
pliant business community members and journalists who reside 
abroad by governments and their internal security and 
intelligence services.
    These extraterritorial acts of repression include, but may 
not be limited to:

    <bullet> LCoercive acts against political exiles by 
security services and their agents, including assassination 
attempts, disappearances, forced abductions and renditions back 
to the home country.
    <bullet> LActive monitoring, infiltration and disruption of 
diaspora and exile communities abroad.
    <bullet> LHarassment and intimidation of an exiled 
political opponent's family members in the home state in order 
to deter political activities abroad.
    <bullet> LRestricting overseas travel and professional 
activities.
    <bullet> LCooperation between the security services of a 
host and sending country to deny exiles due process and/or 
bypass legal proceedings that would determine eligibility for 
political asylum.

    Transnational repression is certainly not new. Dictators 
across the globe historically have sought to extend their reach 
by targeting political opponents abroad--for example, following 
the 1917 revolution, Soviet security services were tasked with 
hunting down political exiles and emigres, including the 
operation, ordered by Stalin, that in 1940 assassinated Leon 
Trotsky in Mexico City. \1\ Cooperation among authoritarian 
security services also has precedent, most notably the 
Operation Condor network under which six Latin American 
dictatorships in the 1970's targeted a common list of 
communists and political opponents throughout the continent. 
\2\
---------------------------------------------------------------------------
    \1\  Andrei Soldatov and Irina Borogan, The Compatriots: The Brutal 
and Chaotic History of Russia's Exiles: Emigres, and Agents Abroad 
(Public Affairs, 2019).
    \2\  Patrice J. McSherry, Predatory States: Operation Condor and 
Covert War in Latin America (Rowman & Littlefield Publishers, 2012).
---------------------------------------------------------------------------
    But the rise of this new wave of transnational repression--
through the 2000's and 2010's--within the era of globalization 
does have some distinctive drivers and new dynamics.

Characteristics of Today's Transnational Repression: Exiles, 
Diasporas and IT

    First, transnational repression is an outcome of the recent 
global backlash against democratization. \3\ The democratic 
optimism of the 1990's and early 2000's, when it appeared that 
democratic norms and practices were spreading irreversibly 
worldwide, has given way to the emergence of a more aggressive 
and savvier breed of autocrat. The so-called Color Revolutions 
of the mid-2000's in Eurasia and the Arab Spring in the Middle 
East have prompted authoritarians to reframe democratic 
opponents, civil society activists and even journalists as 
security threats intent on destabilizing and disrupting their 
autocratic rule. As political opponents flee these crackdowns, 
autocrats now aggressively pursue these exiles overseas in an 
attempt to deny them safe spaces from which they can organize, 
broadcast oppositional media and question their home 
government's legitimacy. Emboldened autocrats have taken 
advantage of overly broad counterterrorism and counterextremism 
measures to rebrand exiled political opponents as extremists, 
while dozens of countries have introduced new restrictions on 
the scope of activities and the foreign funding sources of 
civil society organizations, \4\ such as Russia's ``Foreign 
Agents'' (2012) and ``Undesirable Organizations'' (2015) laws. 
\5\
---------------------------------------------------------------------------
    \3\  Larry Diamond, Marc F. Plattner, and Christopher Walker, eds. 
Authoritarianism goes Global: The Challenge to Democracy (Johns Hopkins 
University Press, 2016).
    \4\  International Center for Non-Profit Law, ``Civic Freedom 
Monitor: Russia.'' At: http://www.icnl.org/research/monitor/russia.html
    \5\  Darin Christensen and Jeremy M. Weinstein. ``Defunding 
Dissent: Restrictions on Aid to NGOs.'' Journal of Democracy 24, no. 2 
(2013): 77-91.
---------------------------------------------------------------------------
    Second, globalization has created new diaspora communities 
of economic migrants. For example, since the early 2000's the 
authoritarian post-Soviet Central Asian states have sent 
millions of migrants to Russia. Though at first they may not be 
politically active in the affairs of their home states, over 
time and as they vie for protections, social rights and/or 
become radicalized, these communities are perceived as 
threatening by authoritarian regimes. Cheap international 
transportation links and low-cost communications technologies 
allow for regular contacts and the transmission of information, 
ideas and values between economic diaspora and their home 
countries. Uzbekistan's former strongman President Islam 
Karimov, fearing their radicalization, viewed these diasporas 
with great suspicion, even as his security services cooperated 
with Russian counterparts to monitor them. Home countries may 
also actively exploit and intimidate their diasporas to ensure 
political loyalty and cultivate a network of embedded 
informants. For example, in Africa, the Eritrean government, 
with a large diaspora population in Europe and North America, 
has aggressively collected a so-called ``diaspora tax,'' using 
the threat of withholding legal services as leverage in their 
collection efforts. \6\
---------------------------------------------------------------------------
    \6\  Nicole Hirt, and Abdulkader Mohammad. ``By Way of Patriotism, 
Coercion, or Instrumentalization: How the Eritrean Regime Makes Use of 
the Diaspora to Stabilize its Rule.'' Globalizations 15, no. 2 (2018): 
232-247.
---------------------------------------------------------------------------
    Third, the rise of new digital and information 
technologies--including social media--offers new tools to the 
security services of authoritarians to monitor, survey and 
infiltrate beyond borders. Historically, information 
technologies were viewed as inherent facilitators of free 
speech and activism across borders. This assumption was 
reinforced by the important role played by social media in 
networking and organizing activist street protests during the 
Arab Spring of 2011-2012. However, authoritarians have 
responded by extending their control of the information space 
beyond their territorial borders and into transnational spaces 
used for anti-regime activities. Sociologist Dana Moss has 
shown how the Syrian government used new technological tools to 
survey the online communications and social media profiles of 
activist exiles in the United States and United Kingdom, 
disrupt and damage online platforms and anti-government 
websites, and intimidate outspoken regime critics with 
electronic messages and the collection of their personal 
information. \7\
---------------------------------------------------------------------------
    \7\  Dana Moss, ``The Ties that Bind: Internet Communication 
Technologies, Networked Authoritarianism, and `Voice' in the Syrian 
Diaspora.'' Globalizations 15, no. 2 (2018): 265-282.

Authoritarian Cooperation, Learning and the Breakdown of 
---------------------------------------------------------------------------
International Democratic Norms

    New transnational repression is also taking place more 
openly in an international environment where liberal democratic 
norms are weakening. Autocrats are actively cooperating with 
one another and learning how to successfully repurpose 
international institutions to avoid international scrutiny and 
accountability for human rights abuses.
    Some of this authoritarian cooperation has been formalized 
within international and regional organizations. For example, 
the Shanghai Cooperation Organization (SCO)--comprised of 
China, Russia, Kazakhstan, Kyrgyzstan, Tajikistan, Uzbekistan 
and, since 2017, India and Pakistan--maintains a common 
blacklist of individuals and organization under the auspices of 
its Regional Anti-
Terrorism Structure (RATS). Though the list is officially meant 
to target the ``three evils'' of extremism, terrorism, and 
separatism, in practice human rights organizations have noted 
that member country regimes use the SCO blacklist to deny each 
other's political exiles and regime opponents regional safe 
harbor and asylum. \8\ In just one decade, the list of 
blacklisted individuals and organizations has exploded--from 15 
organizations and 400 individuals in 2006, to 42 organizations 
and 1,100 in 2010, to 69 organizations and 2,500 individuals 
2016--while courts in member countries--such as Kazakhstan--
have cited the SCO Treaty as the legal basis for extraditing 
political asylum-seekers and exiles back to countries that 
routinely practice torture. \9\ A former U.N. special 
rapporteur on Counterterrorism and Human Rights publicly voiced 
concern about the organization's overly broad definition of the 
``three evils,'' its practice of unconditional extradition, and 
its opaque data-sharing and classification practices. \10\
---------------------------------------------------------------------------
    \8\  International Federation for Human Rights, ``The Shanghai 
Cooperation Organization: A Vehicle for Human Rights Violations.'' 
Paris: 2013. At: https://www.fidh.org/IMG/pdf/sco_report.pdf; and Human 
Rights in China, ``Counter-Terrorism and Human Rights: The Impact of 
the Shanghai Cooperation Organization.'' New York, March 2011. At: 
https://www.hrichina.org/en/publications/hric-report/counter-terrorism-
and-human-rights-impact-shanghai-cooperation-organization
    \9\  Alexander Cooley and Matthew Schaaf, ``Grounding the Backlash: 
Regional Security Treaties, Counternorms, and Human Rights in 
Eurasia.'' In Stephen Hopgood, Jack Snyder and Leslie Vinjamuri, eds. 
Human Rights Futures (Cambridge University Press, 2017): 175-78.
    \10\  Martin Scheinin, Testimony to the Tom Lantos Human Rights 
Commission of the United States House of Representatives. 15 April 
2011. At: https://humanrightscommission.house.gov/sites/
humanrightscommission.house.gov/files/documents/
Testimony%20Scheinin%20120411.pdf
---------------------------------------------------------------------------
    Authoritarians and their security services are also 
informally cooperating and emulating one another's successful 
repressive tactics. Over the last few years, China has 
pressured governments as far afield as Egypt, Cambodia, Kenya 
and Thailand to deport asylum-seeking Uighurs. At the same 
time, as part of an aggressive global anti-corruption campaign, 
China has sent operatives overseas to harass economic 
fugitives, while pressuring their family members back in China 
to persuade them to return. \11\ As you will hear in more 
detail, Turkey has conducted overseas security operations 
against regime opponents in Kosovo and attempted, with mixed 
success, to leverage its economic and cultural ties to the 
Central Asian states to demand the closure of Gulen-affiliated 
schools and the extradition of anti-regime critics. And even 
the usually reliably democratic country of Georgia appears to 
have succumbed to pressure from its more powerful neighbor 
Azerbaijan by allowing, and even assisting in, the abduction of 
journalists and dissidents from within its territory. \12\
---------------------------------------------------------------------------
    \11\  Mark Mazzetti and Dan Levin, ``Obama Administration Warns 
Beijing about Covert Agents Operating in the United States'' New York 
Times  August 16, 2015.
    \12\  Freedom Now, ``Repression beyond Borders: Exiled Azerbaijanis 
in Georgia.'' Brussels, Washington D.C. and Tbilisi, 2017. Available 
at: http://www.freedom-now.org/wp-content/uploads/2017/09/Repression-
beyond-Borders-Exiled-Azerbaijanis-in-Georgia.pdf
---------------------------------------------------------------------------
    The watering down of international human rights protections 
and practice of granting political asylum is part of a steady 
erosion of clear standards of permissible international conduct 
within the OSCE area. Authoritarian global media outlets like 
RT and CGTN compete with Western counterparts to frame news 
coverage. Government-funded non-governmental organizations 
(GONGOs) drown out the critical voices of actual democratic 
watchdogs and civil society monitors. Regime-friendly election 
monitors from the SCO and the Commonwealth of Independent 
States (CIS) praise obviously flawed elections while diverting 
attention from the assessments of more critical international 
observers. We are witnessing a similar erosion of international 
human rights safeguards as authoritarians have become 
increasingly adept at rebranding even the most vulnerable 
opponents abroad as security threats. They target the motives 
and credibility of the messengers, especially international 
journalist and activists, who report and document human rights 
abuses. And they hire Western public relations firms, law firms 
and lobbyists in an attempt to whitewash their autocratic 
reputations.

Transnational Repression and INTERPOL Reform

    In these renewed efforts to go after political opponents in 
exile, INTERPOL has become both an arena for countries to 
contest the politicization of international law enforcement, as 
well as a weapon wielded by autocrats against their political 
enemies abroad.
    INTERPOL actions or ``alerts,'' especially the issuing of 
``Red Notices'' and diffusions, have been at the center of 
efforts by autocrats to misuse the international police 
organization. Red Notices refer to the electronic warnings 
issued by INTERPOL's General Secretariat--at the request of a 
member government--to ascertain the location of a wanted 
criminal for the purposes of detaining and extraditing them to 
stand trial in the home country. ``Diffusions'' are the 
requests for international law enforcement cooperation sent by 
member states to all or a selected group of INTERPOL members to 
assist in the restriction, detention or arrest of an individual 
who has been criminally convicted or accused of a crime. 
According to INTERPOL's own constitution, international police 
cooperation is promoted ``in the spirit of the Universal 
Declaration of Human Rights'' (Article 2), while members are 
strictly prohibited by Article 3 from undertaking ``any 
intervention or activities of a political, military, religious 
or racial character.'' The latter is also known as the 
``neutrality clause'' and meant to safeguard the alert system 
from being abused for political purposes.
    In practice, however, authoritarian governments have 
increasingly violated the neutrality rule by designating exiled 
political opponents as wanted criminals or terrorists. Over the 
last two decades, INTERPOL has seen an explosive growth in 
alerts, increasing almost tenfold from 1,418 in 2001 to 13,561 
in 2018--for a current total of over 58,000 active notices 
worldwide (about 7,000 of which are public).\13\ Improvements 
in informational technology that have eased listing have 
contributed to this growth, but authoritarian governments have 
also found that taking advantage of the alert system, as Steve 
Swerdlow of Human Rights Watch has noted, is a ``low-cost'' way 
to export repression and extend the geography of their 
autocratic reach. \14\
---------------------------------------------------------------------------
    \13\  2001 from Amy Mackinnon, ``The Scourge of the Red Notice,'' 
Foreign Policy December 3, 2018. At: https://foreignpolicy.com/2018/12/
03/the-scourge-of-the-red-notice-interpol-uae-russia-china/; 2018 data 
and current cumulative data from INTERPOL website. INTERPOL, ``Red 
Notices.'' At: https://www.interpol.int/en/How-we-work/Notices/Red-
Notices
    \14\  Quoted in Mackinnon, ``The Scourge of the Red Notice.''
---------------------------------------------------------------------------
    In general terms, the most abusive governments of the 
INTERPOL system are autocracies that routinely engage in 
transnational repression. Some attention has been given to the 
high volume of alerts issued by the governments of Russia and 
China, but autocrats in smaller countries also appear to be 
abusing the organization. For example, Political Scientist 
Edward Lemon's research has shown that the small Central Asian 
State of Tajikistan has issued 2,528 Red Notices, including 
targeting the leadership and members of the country's political 
opposition parties, including Muhiddin Kabiri, the leader of 
the Islamic Party of Tajikistan which once shared power with 
the government but was subsequently banned in 2015.\15\ The 
Central Asian States routinely place Red Notices on exiled 
regime insiders, representatives of opposition parties, and 
prominent civil society leaders and regime critics. \16\
---------------------------------------------------------------------------
    \15\  Edward Lemon, ``Weaponizing INTERPOL.'' Journal of Democracy 
30, no. 2 (2019): 15-29.
    \16\  Alexander Cooley and John Heathershaw, Dictators Without 
Borders: Power and Money in Central Asia (Yale University Press, 2017).
---------------------------------------------------------------------------
    Importantly, the repressive effect of INTERPOL abuse does 
not just hinge on whether a political opponent is successfully 
extradited. In most democracies, properly functioning judicial 
systems tend to, eventually, weed out the obvious politically 
motivated extradition requests. However these alerts still have 
devastating consequences on targeted individuals: they disrupt 
their professional and personal lives; they can prevent them 
from traveling or lead to unexpected detentions in third 
countries; they incur costly legal bills and consume time as 
listed individuals await their court hearings; and they make it 
difficult for listed individuals to conduct banking and other 
financial transactions. Moreover, governments use the very act 
of listing to tarnish the reputations of exiled targets in the 
media and public sphere, intimidate their family members still 
residing in the home country, and confiscate their properties 
and businesses.\17\ Nadejda Atayeva, now a human rights 
defender with refugee status in France, remained on the Red 
Notice list for over 15 years--after she was accused by the 
government of Uzbekistan of an economic crime along with other 
family members and later convicted in absentia. This greatly 
hampered her advocacy work and travel as she assisted hundreds 
of Uzbeks with their refugee requests. She finally managed to 
have to designation removed after a protracted legal process.
---------------------------------------------------------------------------
    \17\  Cooley and Heathershaw, Dictators Without Borders, pp. 187-
219.
---------------------------------------------------------------------------
    Journalists and advocacy organizations, most notably Fair 
Trials, have spotlighted many of INTERPOL's abuses, \18\ and 
the organization has introduced some reforms since 2015, but 
the organization's continued lack of transparency makes it 
difficult to assess the progress of its reform efforts and hold 
its leadership to account. The TRAP Act would provide much-
needed basic data about which member states issue notices and 
in what frequency. It would shed light on how INTERPOL's own 
independent oversight boards--the Commission for the Control of 
INTERPOL's Files (CCF)--adjudicates complaints of abuses and 
which member states are the most frequent violators. This will 
in turn allow other member governments, activists and the media 
to identify and track obvious abuses of the international 
policing network. Finally, it will help ensure that politically 
motivated abuse of INTERPOL is kept in check and deter other 
authoritarians from misusing the organization.
---------------------------------------------------------------------------
    \18\  Fair Trials International, ``Strengthening Respect for Human 
Rights, Strengthening INTERPOL,'' November 2013. At: 
www.fairtrials.org/wp-content/uploads/Strengthening-respect-for-human-
rights-strengthening-INTERPOL4.pdf
---------------------------------------------------------------------------
    Although it may not be realistic for the United States, or 
any country, to check all of the malevolent transnational 
activities of autocrats and their foreign security services, 
the TRAP Act would send a powerful signal about the importance 
of maintaining clear international standards against the 
politicization of our most important international 
organizations. Autocracies will not have a free hand to 
refashion international organizations and redefine basic human 
rights standards and critical political protections.
    Thank you for your attention.

 Prepared Statement of Nate Schenkkan, Director for Special Research, 
                             Freedom House

Introduction

    Chairman Hastings, Co-Chairman Wicker, and members of the 
commission, it is an honor to testify before you today. I ask 
that my full written testimony be admitted into the record.
    Transnational repression, or the persecution of exiles by 
their origin state, is a practice that shapes politics and 
activism around the world. By targeting exiles, governments 
seek to extend their control over their citizens even when they 
leave their territory. As technology and travel have made it 
easier for people to leave their countries yet remain in 
contact with their homelands, authoritarian states in 
particular are treating exiles as still subject to their rule 
even once they have left their territorial jurisdiction.
    And it works. By raising the cost of even the most mundane 
political activity like commenting on a Facebook post, 
transnational repression changes how and even whether citizens 
engage in activities with potential political meaning. This 
shuts down another pathway for democratic change--and that is 
why states use it.

The Turkish case

    I began focusing on this issue in my work at Freedom House 
after the July 2016 coup attempt in Turkey. In response to the 
coup attempt, the Turkish government embarked on a global 
campaign against those it held responsible, principally members 
of the Gulen movement. Using an expansive guilt by association 
approach, Turkey designated anyone associated with the movement 
as part of a terrorist organization, and it aggressively 
pursued them around the world. Turkey uploaded tens of 
thousands of requests for detention into INTERPOL. It canceled 
the passports of thousands of people who were outside the 
country, refused to renew the passports of others, and refused 
to issue passports for some Turkish children born outside the 
country in order to try and get their parents to return to 
Turkey where they could be arrested.
    Most strikingly, Turkey physically brought back 104 Turkish 
citizens from 21 countries, according to its own official 
statements. At least 30 of those were kidnappings, with 
citizens taken from abroad without any legal process 
whatsoever--in some cases, people pulled off the streets of 
foreign cities and bundled onto private jets linked to Turkey's 
intelligence agency. Dozens of others, including many 
registered asylum-seekers, were unlawfully deported to Turkey. 
In one well documented case, the kidnapping of six Turkish 
citizens from Kosovo, one of the men Turkey took was the wrong 
person--a different Turkish citizen with a similar name. The 
wrong man remains imprisoned in Turkey anyway.
    The Turkish example since 2016 is striking and useful to 
study for several reasons: because it is so concentrated in 
time, because it is so aggressive, and because it uses so many 
different tactics. But transnational repression is universal. 
Freedom House has just embarked on a new study of transnational 
repression that will document its scope and scale around the 
world since 2014. Even as data collection is far from complete, 
already we have identified at least 208 cases of violent 
transnational repression in the last 7 years targeting exiles 
from 21 countries. And we know there are hundreds more waiting 
to be identified.
    Documented cases range from Saudi Arabia's murder of Jamal 
Khashoggi in Istanbul, to Azerbaijan's kidnapping of journalist 
Afgan Muxtarli from Georgia, to the disappearance of Thai 
activists from Laos, to the mass detention and deportation of 
Uighurs, Tibetans and Falun Gong practitioners to China from a 
range of countries. Although our focus today is on the OSCE 
region, we should not overlook the fact that this is a truly 
global phenomenon--a global purge, if you will.
    Transnational repression occurs in all parts of the world 
and affects activists and even apolitical exiles everywhere 
they live, including the United States. Just recently the 
Uighur Human Rights Project has published a new report on 
intimidation and surveillance of the Uighur diaspora in the 
United States. This is an issue that affects citizens and 
residents in our country as well.

Recommendations

    The political scientist Yossi Shain in his seminal book The 
Frontier of Loyalty laid out a three-part test for why states 
would engage in persecution of exiles. The three parts are:

        1) A regime's perception of the threat posed by exiles

        2) A regime's available options and skills for 
        suppression through coercion

        3) A regime's cost-benefit calculations for using 
        coercion

    Authoritarian regimes fundamentally see their citizens as 
subjects to be ruled instead of voices to be heeded: for this 
reason, any kind of political engagement is taken as a threat. 
There is nothing we can do to change that first part of the 
equation. To reduce transnational repression, then, the United 
States needs to focus on the second and third parts:

<bullet> 1. First, it needs to blunt the tools of transnational 
repression, or in Shain's vocabulary, weaken the ``available 
options and skills'' that a regime has for engaging in 
transnational repression. There are several ways to do this: As 
other panelists will describe, INTERPOL has become a tool of 
transnational repression. The currently proposed Transnational 
Repression Accountability and Prevention (TRAP) Act would help 
reduce the possibility of INTERPOL abuse. This is a welcome 
piece of legislation and I'm sure we will discuss in the panel 
this and other ways to counter INTERPOL abuse in the United 
States.
    Another tool of transnational repression is commercially 
available spyware, which has been deployed against exiles by 
countries like Saudi Arabia and China. The U.N. Special 
Rapporteur for freedom of expression David Kaye has called for 
tighter regulation of surveillance exports and a full 
moratorium on the export of spyware. The new Draft U.S. 
Guidance for the Export of Surveillance Technology prepared by 
the Bureau of Democracy, Human Rights and Labor is a welcome 
step in that it places human rights due diligence at the center 
of the guidance. Now comes the work to translate the guidelines 
into mandatory regulations governing export of spyware, 
including those that carry penalties for violations. We cannot 
rely on industry to self-regulate in this area.

<bullet> 2. Second, the US needs to reduce the benefit of 
engaging in transnational repression:

    The best way to do this is by supporting targeted 
diasporas, especially in the United States. There are two 
current pieces of legislation focused on China's persecution of 
Uighurs that include measures to increase protection of the 
Chinese diaspora in the United States (HR 649 and HR 1025). 
These are positive bills and we hope a reconciled version will 
pass. In addition, Congress should pursue separate legislation 
to support all vulnerable diaspora communities in the United 
States, including by providing additional resources that would 
strengthen the ability of the FBI and appropriate United States 
law enforcement entities to counter transnational repression 
campaigns. Congress should also make resources available to 
educate local law enforcement and immigration authorities in 
parts of the country where there are high concentrations of 
particularly vulnerable diasporas.

    Outside of the United States, the US can reduce the 
benefits of transnational repression by supporting ``shelter'' 
models that strengthen the resilience of exiled activists and 
journalists. These shelters provide short and long-term 
assistance so that activists can recover from persecution, 
continue their activism, and make a difference even if they are 
forced to remain abroad. The US should work closely with its 
democratic allies around the world to build political will to 
support shelter projects and persecuted individuals.
    The United States should also show leadership by providing 
safe haven to persecuted individuals. Instead of reducing the 
number of refugees the United States accepts, we should 
significantly increase it instead.

<bullet> 3. Third and finally, the US needs to raise the cost 
of engaging in transnational repression: 
    On the diplomatic front, the US should make a consistent 
practice of issuing private and where necessary public protests 
to diplomats and consular officials who abuse their position to 
intimidate, threaten, or otherwise undermine the rights and 
freedoms of exiles and members of diasporas in the United 
States. 
    The United States should also sanction individuals 
responsible for grave human rights violations against exiles. 
As we see clearly in the cases of Saudi Arabia and Turkey, 
transnational repression campaigns are matters of state, often 
run by designated intelligence units that target exiles and 
diasporas. The United States should identify individuals and 
units involved in violent transnational repression and sanction 
them, using the Global Magnitsky Act, Section 7031[c] of the 
Fiscal Year appropriations bill, or other authorities as 
appropriate. Especially where the persecuting state is a US 
ally, units and individuals should be scrutinized to ensure 
that they do not receive security assistance. And where US 
criminal law applies, the US should investigate and prosecute 
officials and proxies who engage in transnational repression.

Conclusion

    In a world that has been shrunk by technology, neither 
activism nor authoritarianism respect traditional state 
boundaries. The growth of transnational repression is a logical 
consequence of technology making it easier for activists to 
speak to fellow-citizens from abroad, and easier for states to 
attack them. But just because it is a part of our world doesn't 
mean we have to accept it. The United States and other 
democracies have the ability and the responsibility to blunt 
the tools of transnational repression and to protect vulnerable 
exiles.

Prepared Statement of Bruno Min, Senior Legal and Policy Advisor, Fair 
                                 Trials
[GRAPHIC] [TIFF OMITTED] T7829.011

.eps[GRAPHIC] [TIFF OMITTED] T7829.012

.eps[GRAPHIC] [TIFF OMITTED] T7829.013

.eps[GRAPHIC] [TIFF OMITTED] T7829.014

.eps[GRAPHIC] [TIFF OMITTED] T7829.015

.eps[GRAPHIC] [TIFF OMITTED] T7829.016

.eps[GRAPHIC] [TIFF OMITTED] T7829.017

.eps[GRAPHIC] [TIFF OMITTED] T7829.018

.eps[GRAPHIC] [TIFF OMITTED] T7829.019

.eps[GRAPHIC] [TIFF OMITTED] T7829.020

.eps[GRAPHIC] [TIFF OMITTED] T7829.021

.epsPrepared Statement of Sandra A. Grossman, Partner, Grossman Young & 
                     Hammond, Immigration Law, LLC

 HOW ABUSIVE RED NOTICES AFFECT PEOPLE IN THE U.S. IMMIGRATION SYSTEM 
AND STEPS THAT CAN BE TAKEN WITHIN THE U.S. AND AT INTERPOL TO PROTECT 
                              VICTIMS \1\
---------------------------------------------------------------------------

    \1\  This submission is largely based on an original article co-
authored by Sandra A. Grossman and Dr. Ted R. Bromund 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="413529242e252e33246f23332e2c342f250129243328352026246f2e3326">[email&#160;protected]</a>), who is the Senior Research Fellow in 
Anglo-American Relations in the Margaret Thatcher Center for Freedom at 
the Heritage Foundation. The author would like to thank Dr. Bromund and 
also attorney Thomas Ragland for their assistance in preparing this 
article.

---------------------------------------------------------------------------
Introduction

    Chairman Hastings, Co-Chairman Wicker, and members of the 
Commission, my name is Sandra Grossman. I am a founding partner 
of the law firm Grossman Young and Hammond. I am an attorney 
practicing in the field of U.S. immigration law for over 15 
years and a member of the American Immigration Lawyers 
Association. I became involved in INTERPOL-related work through 
my representation of politically exposed individuals who 
retained me to help them navigate the byzantine U.S. 
immigration system. I have represented hundreds of individuals 
fleeing persecution from all over the world. I have also 
written, published, and spoken extensively about U.S. asylum 
law and different aspects of the U.S. immigration system. In 
the course of my work, I have witnessed far-too-often how 
oppressive regimes manipulate INTERPOL to persecute political 
dissidents seeking refuge in the United States.
    Authoritarian regimes in Russia, China, Turkey, Venezuela, 
and a growing list of other countries are attempting to achieve 
through the back door of the U.S. immigration system what they 
cannot accomplish through formal extradition proceedings: 
utilizing our justice system to arrest and jail political 
dissidents. In my experience, victims of INTERPOL abuse are 
often powerless to mitigate the grave effects of an 
illegitimate diffusion or Red Notice. These effects include 
extensive limitations on their ability to travel, efforts by 
federal authorities to deport them, lengthy detention in 
immigration custody, the denial of immigration benefits such as 
permanent residency or naturalization, the closure of bank 
accounts, and separation from family, friends, and colleagues. 
Illegitimate Red Notices literally devastate the lives of 
already vulnerable people.

How is the U.S. immigration system coopted by
foreign governments?

    Before publishing a Red Notice, INTERPOL is required to 
review any request for compliance with Articles 2 and 3 of its 
Constitution and the subsidiary rules. However, because of 
inherent flaws in its system of review and its reflexive 
deference to member countries, and because INTERPOL is itself 
not an investigative body, far too often the organization 
publishes Red Notices and diffusions that have not been 
properly vetted but are, in fact, persecutory in nature. 
Autocratic nations accomplish this by accusing dissidents of 
crimes such as fraud or tax evasion, which on their face appear 
to be non-political.
    Those abusive Red Notices begin to circulate in U.S. law 
enforcement databases after they are communicated to the United 
States. Although a Red Notice alone is not a sufficient legal 
basis for arrest in the United States, law enforcement 
agencies--and in particular Immigration and Customs Enforcement 
or ICE--utilize Red Notices to target foreign nationals for 
detention and deportation. Accepting a Red Notice without 
scrutiny can, and often does, turn ICE agents and Immigration 
Judges into unwitting agents of the individual's abusive home 
country. Worse, if a person enters the U.S. on a valid visa 
that is then cancelled based on the publication of a Red 
Notice, the abusive foreign nation has essentially 
``manufactured'' an immigration violation in the U.S. by simply 
lodging the Red Notice request.

Examples of INTERPOL abuse and how authoritarian regimes use 
illegitimate Red Notices to manipulate the U.S. immigration 
system

    Illegitimate Red Notices have real life implications for 
vulnerable people and their families.

        1. A U.S. government-credentialed Turkish journalist 
        who held lawful permanent residence in the United 
        States sought our services to obtain his U.S. 
        citizenship. He then learned of a Red Notice issued 
        against him from the Turkish government related to his 
        criticisms of the government while working for an 
        independent newspaper. As acknowledged by multiple 
        international human rights organizations, the Red 
        Notices against him and others similarly situated were 
        part of a large scale, politically-motivated crackdown 
        on dissent by the Turkish regime. Despite more than a 
        year of communications with the Commission for the 
        Control of INTERPOL's Files, and despite the fact that 
        the prosecutor's office of the Turkish appeals court 
        itself declared that most of the trial's defendants 
        should be acquitted, INTERPOL has yet to remove the Red 
        Notice lodged against this individual. In the meantime, 
        he cannot travel internationally, and is unable to 
        pursue U.S. citizenship. Importantly, the Red Notice 
        has also had the effect of acting as a virtual gag 
        order; as the journalist has made the decision to 
        seriously limit his criticisms of the Turkish regime.

        2. In another case involving an individual accused of 
        tax fraud by the Russian Federation, my client filed 
        for asylum in the United States shortly after 
        discovering that he was the subject of a Red Notice. 
        DHS detained the individual at his asylum interview and 
        he spent four months in jail before being released on 
        bond. The results of a request under the Freedom of 
        Information Act (FOIA) filed with ICE later revealed 
        that ICE had immediately categorized the individual as 
        a danger to the community and a flight risk based on 
        nothing more than the Red Notice. An Immigration Judge 
        eventually released him on a very high $100,000 bond. 
        Due to our efforts before the Commission for the 
        Control of INTERPOL's Files, the Red Notice was 
        deleted, but only after the client and his family had 
        suffered most of the Red Notice's worse effects. Years 
        after his initial ICE arrest, he is still fighting 
        deportation in Immigration Court.

        3. In another recent case, a U.S. citizen filed an 
        immigrant visa petition for her father, a citizen of 
        Armenia. Unbeknownst to him, he was the subject of a 
        Red Notice that arose from a private business dispute 
        with corrupt Armenian officials. ICE detained my client 
        due to the Red Notice. The Immigration Judge denied a 
        request to lower the extremely high bond amount, 
        despite the fact that the Respondent appeared eligible 
        for permanent residency and asylum and had extensive 
        family ties in the U.S. The sole stated reason for 
        refusing to lower the bond amount was the existence of 
        an INTERPOL Red Notice. In fact, a Red Notice actually 
        decreases flight risk and makes travel more difficult. 
        Nevertheless, DHS officials and Immigration Judges 
        alike consistently miss this point.

        4. Several years ago, I represented a Venezuelan 
        citizen with lawful permanent resident status, who had 
        his company raided and unlawfully expropriated by the 
        Venezuelan government. Venezuela issued an illegitimate 
        Red Notice, as it so often does. For years, until we 
        were able to convince INTERPOL to cancel the Red 
        Notice, he was unable to travel. In the meantime, his 
        mother who resided in Mexico was diagnosed with cancer 
        and he was unable to visit or care for her.

        5. A recent survey by the American Immigration Lawyers 
        Association (AILA) uncovered many more similar examples 
        of INTERPOL abuse within the U.S. immigration system. 
        Attorneys consistently described how immigration 
        authorities, rarely questioning their legitimacy, used 
        the existence of a Red Notice as justification to 
        detain valid asylum seekers and press for their 
        deportation.

Conclusion 

    The Department of Justice does not consider a Red Notice 
alone to be sufficient basis for arrest, because it does not 
meet the requirements of the Fourth Amendment to the 
Constitution. Instead, the U.S. treats a foreign issued Red 
Notice only as a formalized request to be ``on the lookout'' 
for the individual in question and to advise if they are 
located. Unfortunately, this message is not getting across to 
decision-makers in the immigration system.
    Last year, the United States Court of Appeals for the Third 
Circuit denied a petition for release from detention (habeas 
corpus petition) for a Russian citizen who had languished in 
U.S. immigration detention for over two-and-a-half years solely 
because of a Red Notice issued by Russia accusing him of fraud. 
In his dissent, Judge Roth declared that ``the judicial branch 
of our federal government should be sheltered from the 
political maneuverings of foreign nations.. Nevertheless, there 
are occasions when it becomes evident that the machinations of 
a foreign government have inadvertently . . . become entangled 
in the judicial process.'' The issue of INTERPOL abuse is such 
an occasion, which has repeated itself far too often and needs 
to be remedied.
    The U.S. must ensure that INTERPOL enhances the screening 
process for INTERPOL communications, and that the U.S. National 
Central Bureau (NCB), which is responsible for communicating 
with INTERPOL, acts as a second layer of protection against 
abusive notices. The U.S. NCB should more carefully examine the 
full, original Red Notice, especially if the issuing state is a 
member country that is known to repeatedly misuse INTERPOL. The 
NCB should then ensure that the Notice or diffusion meets all 
the conditions and contains all the judicial data required by 
INTERPOL, and to assess whether the Notice contains any 
information or assertions that violate INTERPOL's rules or 
indicate bias on the part of the requesting authorities. The 
U.S. must also play a greater role in ensuring that INTERPOL 
and the CCF is more transparent, publishes its jurisprudence 
and reports, and that its activities actually comply with its 
rules, including the political predominance test. Those nations 
which consistently violate the rules should have their 
memberships suspended. If the Transnational Repression 
Accountability and Prevention Act (or the ``TRAP'' Act) 
accomplishes even some of these goals, it will be a much-needed 
first step to address the problem of INTERPOL abuse, and to 
prevent our justice system from being manipulated by 
authoritarian regimes. International police cooperation is 
certainly necessary in a world of transnational crime, but it 
must be accomplished in such a way that is also protective of 
individual human rights.

=======================================================================


                        MATERIAL FOR THE RECORD

=======================================================================


Putin and Other Authoritarians' Corruption is a Weapon--and a Weakness 
                                  \1\
---------------------------------------------------------------------------

    \1\  The Washington Post, March 8, 2019.
---------------------------------------------------------------------------

                by David Petraeus and Sheldon Whitehouse

    Thirty years after the end of the Cold War, the world is 
once again polarized between two competing visions for how to 
organize society. On one side are countries such as the United 
States, which are founded on respect for the inviolable rights 
of the individual and governed by rule of law. On the other 
side are countries where state power is concentrated in the 
hands of a single person or clique, accountable only to itself 
and oiled by corruption.
    Alarmingly, while Washington has grown ambivalent in recent 
years about the extent to which America should encourage the 
spread of democracy and human rights abroad, authoritarian 
regimes have become increasingly aggressive and creative in 
attempting to export their own values against the United States 
and its allies. Russian President Vladimir Putin and other 
authoritarian rulers have worked assiduously to weaponize 
corruption as an instrument of foreign policy, using money in 
opaque and illicit ways to gain influence over other countries, 
subvert the rule of law and otherwise remake foreign 
governments in their own kleptocratic image.
    In this respect, the fight against corruption is more than 
a legal and moral issue; it has become a strategic one--and a 
battleground in a great power competition.
    Yet corruption is not only one of the most potent weapons 
wielded by America's authoritarian rivals, it is also, in many 
cases, what sustains these regimes in power and is their 
Achilles' heel.For figures such as Putin, the existence of 
America's rule-of-law world is intrinsically threatening. 
Having enriched themselves on a staggering scale--exploiting 
positions of public trust for personal gain--they live in fear 
that the full extent of their thievery could be publicly 
exposed, and that the U.S. example might inspire their people 
to demand better.
    Corrupt regimes also know that, even as they strive to 
undermine the rule of law around the world, they are 
simultaneously dependent on it to a remarkable degree. In 
contrast to the Cold War, when the Soviet bloc was sealed off 
from the global economy and sustained by its faith in communist 
ideology, today's autocrats and their cronies cynically seek to 
spend and shelter their spoils in democratic nations, where 
they want to shop, buy real estate, get health care and send 
their children to school.
    Ironically, one of the reasons 21st-century kleptocrats are 
so fixated on transferring their wealth to the United States 
and similar countries is because of the protections afforded by 
the rule of law. Having accumulated their fortunes illegally, 
they are cognizant that someone more connected to power could 
come along and rob them too, as long as their loot is stuck at 
home.
    Fortunately, the United States has begun to take steps to 
harden its rule-of-law defenses and push back against foreign 
adversaries. The passage of the Global Magnitsky Act in 2016, 
for instance, provided a powerful new tool for targeting 
corruption worldwide that is being increasingly utilized. But 
there is more to do.
    In particular, the United States should make it more 
difficult for kleptocrats, and their agents, to secretly move 
money through the rule-of-law world, whether by opening bank 
accounts, transferring funds or hiding assets behind shell 
corporations. Failure to close loopholes in these areas is an 
invitation to foreign interference in America's democracy and a 
threat to national sovereignty.
    Congress should tighten campaign-finance laws to improve 
transparency given that U.S. elections are clearly being 
targeted for manipulation by great-power competitors.
    At the same time, the United States must become more 
aggressive and focused on identifying and rooting out 
corruption overseas. Just as the Treasury Department has 
developed sophisticated financial-intelligence capabilities in 
response to the threat of terrorism and weapons of mass 
destruction, it is time to expand this effort to track, disrupt 
and expose the corrupt activities of authoritarian competitors 
and those aligned with them.
    Hardening the nation's rule-of-law defenses is not, of 
course, a substitute for traditional forms of U.S. power, 
including military strength and economic dynamism. But it can 
provide an additional set of tools to bolster national 
security.
    In the intensifying worldwide struggle between the rule of 
law and corruption, the United States cannot afford neutrality. 
Complacency about graft and kleptocracy beyond U.S. borders 
risks complicity in it--with grave consequences both for the 
nation's reputation abroad and Americans' well-being at home.

David Petraeus is a retired U.S. Army general and the former 
director of the Central Intelligence Agency. Sheldon 
Whitehouse, a Democrat, is a U.S. senator from Rhode Island.
[GRAPHIC] [TIFF OMITTED] T7829.001

.eps[GRAPHIC] [TIFF OMITTED] T7829.002

.eps[GRAPHIC] [TIFF OMITTED] T7829.003

.eps[GRAPHIC] [TIFF OMITTED] T7829.004

.eps[GRAPHIC] [TIFF OMITTED] T7829.005

    .epsStatement from WUC President Dolkun Isa on China's Abuse of 
                                INTERPOL

    China's abuse of the INTERPOL red notice system and general 
harassment had significant detrimental effects on my work as a 
human rights activists and restricted my access to various 
countries and organizations and violated my basic rights to 
freedom of movement and freedom of expression.
    For context, I am currently the President of the World 
Uyghur Congress, an umbrella organization of Uyghur diaspora 
groups that aims to promote democracy, human rights and freedom 
for the Uyghur people and to use peaceful, nonviolent, and 
democratic means to determine their political future. I am also 
the Vice President of the Unrepresented Nations and Peoples 
Organisation (UNPO). I have been working in the field of human 
rights advocacy for over 20 years, since I fled China and was 
granted political asylum in Germany in 1996. I was forced to 
flee China due to my activism as a leader of the Uyghur 
democratic students' demonstration in 1988.
    I have consistently advocated for the rights of the Uyghur 
people and has raised the issue in the United Nations, the 
institutions of the European Union and in individual States, as 
well as working to mobilize the Uyghur diaspora community to 
collectively advocate for their rights and the rights of the 
Uyghur people in East Turkistan.
    Due to my work on Uyghur human rights issues, the Chinese 
government has taken a number of measures to inhibit my work 
and movement, the most serious of these being the subject of 
today's hearing. In 1999, I first learned that the Chinese 
government had issued an INTERPOL Red Notice on my name, which 
demanded my arrest and extradition back to China. The Chinese 
government made completely unfounded allegations with no 
compelling evidence that I was involved in terrorist 
activities. These charges were politically motivated and 
without merit, but were accepted by INTERPOL, apparently 
without a proper investigation into the Chinese government's 
claims, and a Red Notice was put on my name. It was not until 
February 21, 2018 that the Red Notice on my name was finally 
deleted. The NGO Fair Trials used INTERPOL's updated complaints 
mechanism to appeal the Red Notice, which was then deleted upon 
review.
    While I am deeply grateful for the work of Fair Trials and 
happy to no longer be subjected to a Red Notice, it took from 
1997-2018 to overturn a clearly politically motivated and 
unsubstantiated Red Notice. My case is one of several cases 
where authoritarian governments have abused the system in an 
effort to silence and impede the work of human rights activists 
and political dissidents.
    The practical impacts of the Red Notice on my name during 
these 21 years were real and substantial. It impacted my work 
by preventing me from being able to travel to certain 
countries, to enter government buildings on a number of 
occasions, to have access to fora and institutions. On several 
occasions it led to dangerous and potentially life threatening 
situations where I was faced with a possible extradition to 
China, where I would have certainly been arbitrarily detained 
and subjected to other serious human rights violations.
    Crucially, the Red Notice was used by the Chinese 
government to defame me and to delegitimize my work. On 
numerous occasions, including in a Statement from the Chinese 
Foreign Ministry Spokesperson in July 2017, I was labelled a 
``terrorist wanted under the red notice of INTERPOL and by the 
Chinese police''. This politically motivated Red Notice was 
used as proof by the Chinese government that their false claims 
about me were true. The reputational damage and the `terrorist' 
label certainly made my human rights work significantly more 
difficult.
    Below is a chronological list of incidents of harassment 
and attempts to me from speaking about China's human rights 
record.

    <bullet> LIn December 1999, I was detained at the US 
General Consul in Frankfurt while applying for a visa to the 
United States. He was handed over by embassy guards to German 
police and detained for 6 hours. I was then released and became 
aware that he was stopped due to China putting a notice on him 
through INTERPOL.
    <bullet> LIn April 2005, during the session of the Human 
Right Committee in Geneva, I participated in a joint Uyghur-
Tibetan peaceful demonstration in front of U.N. After the 
demonstration, Swiss police detained me and took me to the 
police station. I was questioned and detained for 5-6 hours and 
had my finger prints taken. I was then released.
    <bullet> LIn September 2006, I was stopped and detained in 
the Dallas Airport while on a trip to the USA. After being 
detained for 23 hours, I was sent back to Germany. This 
incident too was caused by the red notice placed on Dolkun Isa 
through INTERPOL by the Chinese government.
    <bullet> LIn August 2008, I was stopped at the Antalya 
airport in Turkey. I was refused entry, likely because of 
Chinese pressure, and was sent back to Germany 24 hours later.
    <bullet> LIn September 2009, I was detained at the Seoul 
airport in South Korea for 3 days after traveling to the 
country to attend a conference. After significant pressure from 
the Chinese government, the South Korean authorities were 
considering forcibly returning me to China. It took the 
intervention of the German foreign ministry to prevent this 
from happening and I was forced to return to Germany.
    <bullet> LAlso in 2009, I was informed that U was banned 
from Taiwan and refused a visa. This decision followed a debate 
in the Taiwanese parliament, where the decision was made to ban 
the Uyghur activists to improve relations with mainland China.
    <bullet> LIn April 2016, I was due to attend a conference 
in Darussalam, India together with Tibetan groups. I was 
granted an electronic visa to attend the event. The 
spokesperson for the Chinese Foreign Ministry heavily protested 
this to the Indian government and a few days later my visa was 
canceled.
    <bullet> LIn April 2017, I was removed from the U.N. 
Permanent Forum on Indigenous Issues by U.N. security on the 
third day of his attending. I was accredited to attend the 
event and had attended the first 2 days without incident. No 
explanation has ever been given for his expulsion despite 
numerous requests for more information. The Chines head of U.N. 
DESA responsible for the Forum has since admitted on Chinese TV 
that he used his power as a U.N. official to get me expelled.
    <bullet> LIn July 2017, I was stopped by Italian police 
while trying to attend a press conference that I was invited to 
in the Italian Senate. The police officers who stopped me ad 
prevented me entering informed me that I was stopped because I 
had a `red notice' put on me by China. I was detained for 3 
hours before I was released, but I was not allowed to enter the 
Italian 
Senate.
    <bullet> LIt should also be noted that I have been 
regularly harassed by Chinese officials while attend the U.N. 
Human Rights Council Sessions. The Chinese government has sent 
letters to other Permanent Missions telling them not to meet 
with me or other WUC representatives and labelled me a 
terrorist.
    <bullet> LIn April 2018 the Chinese Mission to the U.N. 
tried to revoke the ECOSOC status of the Society for Threatened 
Peoples who had accreditated me to attend the U.N. Permanent 
Forum on Indigenous Issues, again claiming that I was a 
terrorist. The case was taken before the ECOSOC Committee where 
the Chinese government again was not able to provide any 
evidence for their claims and eventually stopped proceedings.
[GRAPHIC] [TIFF OMITTED] T7829.006

.eps[GRAPHIC] [TIFF OMITTED] T7829.007

.eps[GRAPHIC] [TIFF OMITTED] T7829.008

.eps[GRAPHIC] [TIFF OMITTED] T7829.009

.eps[GRAPHIC] [TIFF OMITTED] T7829.010

   .epsStatement of Alexey Kharis to the Commission on Security and 
                         Cooperation in Europe

    My name is Alexey Kharis. I am a 44-year-old Russian 
citizen. I have a wife and two young children, aged 8 and 10. 
We are seeking asylum in the United States after I was targeted 
for opposing official corruption in Russia. I am giving this 
statement to describe how U.S. immigration authorities have 
allowed Russia to persecute me through abuse of the INTERPOL 
Red Notice system.
    Before my problems with the Russian government, I ran a 
successful construction business that employed over 2,000 
people and participated in projects with international 
corporations such as Hyundai and ExxonMobil. In 2010, my 
company was awarded a contract to renovate a shipbuilding 
facility near Vladivostok, Russia. Unfortunately, I later 
learned that high-level government officials were embezzling 
from the project. In 2014, I was called in for interrogation by 
agents of the Russian Federal Security Service (FSB), who asked 
me to help them falsely accuse a whistleblower who was exposing 
this corruption. When I refused, they threatened to ``bury'' me 
alongside the whistleblower. Later that year, my family and I 
traveled to the United States for what we thought would be a 
short trip. Unfortunately, we quickly learned that I was facing 
false accusations of embezzlement in Russia, likely as 
retaliation for refusing to cooperate with the FSB.
    At first, we tried to obtain justice through the Russian 
courts. Unfortunately, in 2015, the Russian government issued 
an INTERPOL Red Notice against me based on its false 
allegations. I later learned that Russia routinely uses Red 
Notices and false accusations of financial crimes as a way to 
have other countries return its dissidents from abroad. Having 
lost all hope in the Russian legal system, I applied for asylum 
in 2016. I even mentioned the INTERPOL Red Notice as one of the 
ways the Russian government was persecuting me. Unfortunately, 
U.S. immigration authorities used the INTERPOL Red Notice as a 
basis to revoke our visas.
    When I later went to pick up my asylum decision in August 
2017, I was arrested and placed in removal proceedings. I ended 
up spending 15 months in immigration detention because the 
immigration judge was convinced that the INTERPOL Red Notice 
meant I was a flight risk, even though it had been issued by a 
regime that routinely abuses the INTERPOL system to punish 
dissidents. The immigration judge also denied me asylum, in 
part, because he found that the INTERPOL Red Notice was 
``probable cause'' evidence that I had committed these crimes.
    I ended up having to take my case to a federal court, which 
ordered the immigration judge to consider evidence that 
``Russia is a frequent abuser of INTERPOL's lax procedural 
checks to obtaining a Red Notice,'' and that the Department of 
Justice does not consider INTERPOL Red Notices, on their own, 
as a basis for arrest. \1\ I was finally released on bond in 
November 2018. In April 2019, the Board of Immigration Appeals 
reversed my asylum denial, in part because it found that a Red 
Notice was not a sufficient basis to deny me asylum. Finally, 
in July 2019, INTERPOL informed me that it was deleting my Red 
Notice after I submitted a request to them nearly nine months 
before. My asylum case is still working its way through the 
immigration courts.
---------------------------------------------------------------------------
    \1\  Kharis v. Sessions, 18-CV-04800 (N.D. Cal. November 6, 2018).
---------------------------------------------------------------------------
    In some ways, I am lucky. Unlike so many Russian 
dissidents, I had the resources and family support to wage this 
five-year battle in both Russian and U.S. courts. However, I 
continue to suffer the consequences of U.S. immigration 
authorities relying on fraudulent Russian Red Notices. I still 
have to wear an ankle monitor, preventing me from traveling 
freely, even for my job. Also, my kids are still reluctant to 
let me go even for a short trip, asking if there is a chance 
that I might go to the ``immigration camp'' again. Also, I live 
in fear that Russian will try once again to abuse the legal 
process to target me and my family. Therefore, I hope the 
Commission will consider my experience and work to prevent 
authoritarian regimes from using the U.S. legal system to 
oppress its own citizens.

Statement of Ilhan Tanir to the Commission on Security and Cooperation 
                               in Europe

    When I woke up on the morning of October 16, 2018, I knew 
immediately from the alerts on my phone of dozens of mentions 
of my name in the media that there had been a big development 
in one of the cases in Turkey against me. But the development 
was so far from what I had been expecting that it seemed almost 
surreal. An Istanbul court had requested that INTERPOL issue a 
Red Notice arrest warrant for myself and my former chief editor 
at the Cumhuriyet newspaper, Can Dundar. What could I possibly 
have done to compel Turkish authorities to demand that INTERPOL 
make such a move?
    The Turkish government is pursuing me for my activities as 
a journalist, and is charging me, like many other journalists 
back in Turkey, with membership in--and associations with two 
different terrorist organizations. I am accused of being a 
member of the Gulen movement as well as making propaganda for 
the Kurdistan Workers' Party (PKK), an outlawed Kurdish armed 
organization recognized as a terrorist group by the United 
States, Turkey and the European Union. I am also accused of 
``undermining the Turkish government''.
    I should tell you first without a doubt that this is a 
purely political case in which the aim is to silence and punish 
me like the dozens of journalists now rotting in Turkey's 
jails. If I had obeyed the Turkish government and muted my 
critical reporting and tweets, or took the side of the 
government, I would have been just fine.
    The Cumhuriyet indictment is more than 400 pages long and I 
take my place in it alongside more than a dozen other 
journalists thanks to the time I spent reporting for the 
secularist daily between January 2015 and July 2016.
    Around 20 pages of the indictment refer to me, and these 
include about 35 tweets out of nearly 76,000 tweets I posted at 
@WashingtonPoint from 2009. In not one of these tweets, did I 
praise U.S.-based preacher Fethullah Gulen or his movement, 
unlike AKP government officials, journalists and media 
mouthpieces who were doing so at the time.
    As I have previously said and written publicly, I 
unequivocally reject all allegations of ties to the Gulen 
movement and repeat that the indictment against me contains not 
one shred of evidence of any link. Given its record, it is 
still not that surprising that Turkish authorities have decided 
to request that INTERPOL issue a Red Notice international 
warrant for my arrest due to a case involving the Cumhuriyet 
newspaper.
    For the PKK allegations, the indictment cites an interview 
I gave to the pro-Kurdish ARA News agency, which has also 
published interviews with numerous current and former U.S. 
officials, including the spokesperson of the anti-Islamic State 
coalition at the time, Colonel Ryan Dillon, and former U.S. 
ambassador Robert Ford. The reporter who interviewed me was 
Wladimir van Wilgenburg, a long-serving and respected reporter 
on the Middle East, who frequently speaks with government 
officials from the United States and other countries in the 
region.
    Another piece of ``evidence'' showing my alleged 
association with the PKK is from an article I wrote on August 
12, 2015, titled ``A Strong Stance from the US: Attacks on YPG 
Are Unacceptable'':

        A senior State Department official in Turkey who has 
        been closely following events told Cumhuriyet, `We have 
        made it clear that an attack by Turkey on the YPG in 
        Syria is unacceptable for us.' When reminded of 
        Sinirlioglu's claim that the US had carried out strikes 
        on the PYD, the official started laughing as if to say 
        `What else?' `Strikes against the YPG aren't even on 
        the table.' When asked if there was a communication 
        problem, the official said, `These are complex issues. 
        Turkey wants us as an ally, and we want to work 
        together with them. For the sake of preventing harm to 
        Turkish civilians from attacks by the PKK, we want the 
        top officials to be as careful as possible.'

    In the Turkish prosecutors' world, reports like these show 
my support for a terror organization. I do not think I need to 
do any defense for these articles I wrote as they speak for 
themselves.
    The indictment accuses me of ``taking aim at the president 
personally'' and continues very vaguely worded `accusations':

        While creating the impression that he was a journalist 
        with reliable sources and powerful connections, 
        especially in America, he depicted Turkey as an 
        ungovernable country that has become isolated in its 
        foreign relations, that fails to show the necessary 
        decisiveness in dealing with terrorist organizations, 
        and that even overlooks/aids ISIS (the Islamic State). 
        In the suspect's articles, it is noteworthy that he 
        often based his claims on unnamed `high-level American' 
        sources.

    These are the main accusations Turkish prosecutors laid out 
against me. For a few irrelevant tweets, discussions with a 
news site and university, and some easily refuted false claims, 
the prosecutor wants to give me seven-and-a-half to 15 years in 
jail.
    Since November 2018, I have been trying to understand what 
kind of data, notice or diffusion on me is stored at INTERPOL 
following press reports that the Turkish Government is pursuing 
a Red Notice on me. I prepared my case in consultation with 
some leading experts on INTERPOL in Washington, D.C. and expert 
lawyers on the subject, laying out that the indictment against 
me by the Turkish government has not a single evidence against 
me and that such a politically motivated request from the 
Turkish government should be rejected.
    Unfortunately, my attempts to get INTERPOL to simply tell 
me whether they have any data on me failed. All I received from 
INTERPOL is a vaguely worded short letter in March 2019, saying 
that the ``National Central Bureau (NCB) of INTERPOL in Turkey 
has restricted the communication of any information, including 
the existence or the absence of data concerning you in the 
INTERPOL Information System.''
    According to experts and lawyers, `restriction' could mean 
there are data on me or not. After almost a year, I am back to 
the square one.
    Here INTERPOL is unwilling to even share whether any data 
exist on me, and by this lack of transparency happens to enable 
an authoritarian regime to harass a critical journalist living 
abroad, placing limits on my ability to travel freely and 
creating quite a few other costs. INTERPOL is simply assisting 
the Turkish government to raise the cost of criticism of her.
    I am extremely happy to see that the U.S. Helsinki 
Commission is taking up this important legislation to pave the 
way for INTERPOL to update its system and hopefully to respond 
to legal challenges. There is a clear need for INTERPOL to 
enforce its rules for member nations, correcting and updating 
disseminated notices and communications to stop abuse by 
authoritarian regimes worldwide.
    According to Article 3 of INTERPOL's Constitution, ``It is 
strictly forbidden for the Organization to undertake any 
intervention or activities of a political, military, religious 
or racial character.''
    To follow its own constitution, INTERPOL needs to be 
reformed and be more transparent. I sincerely hope that the 
Helsinki Commission's work on the subject will help INTERPOL to 
do just that.
Sincerely,
    Ilhan Tanir

Note: This statement is a shortened version of three 
installments I published about my experience with INTERPOL in 
2018.

                                 [all]

  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe [OSCE].

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
